<html>
<title> - ASIAN CARP AND THE GREAT LAKES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     ASIAN CARP AND THE GREAT LAKES

=======================================================================

                                (111-87)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            February 9, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
54-813                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
?

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice      Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Brammeier, Joel, President and CEO, Alliance for the Great Lakes, 
  Chicago, Illinois..............................................     9
Davis, Cameron, Senior Adviser to the Administrator, United 
  States Environmental Protection Agency, Chicago, Illinois......     9
Frank, Matt, Secretary, Wisconsin Department of Natural 
  Resources, Madison, Wisconsin..................................     9
Hansen, Michael, Chair, Great Lakes Fishery Commission, Ann 
  Arbor, Michigan................................................     9
Humphries, Rebecca, Director, Michigan Department of Natural 
  Resources and Environment, Lansing, Michigan...................     9
Lodge, David, Director, Center for Aquatic Conservation, 
  Professor of Biological Sciences, University of Notre Dame, 
  Notre Dame, Indiana............................................     9
Peabody, Major General John W., Commander, the Great Lakes and 
  Ohio River Division, United States Army Corps of Engineers, 
  Cincinnati, Ohio...............................................     9
Rogner, John, Assistant Director, Illinois Department of Natural 
  Resources, Springfield, Illinois...............................     9
Wilkins, Del, Vice President of Terminal Operations and Business 
  Development, Canal Barge Company, Inc., Channahon, Illinois, 
  testifying on behalf of The American Waterways Operators.......     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................    51
Latta, Hon. Robert E., of Ohio...................................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brammeier, Joel..................................................    58
Davis, Cameron...................................................    68
Frank, Matt......................................................    72
Hansen, Michael..................................................    91
Humphries, Rebecca...............................................    99
Lodge, David.....................................................   112
Peabody, Major General John W....................................   172
Rogner, John, on behalf of Marc Miller...........................   179
Wilkins, Del.....................................................   182

                       SUBMISSION FOR THE RECORD

Edwards, Hon. Donna F., a Representative in Congress from the 
  State of Maryland:.............................................
      Letter, John R. Groundwater, Executive Director, Passenger 
        Vessel Association.......................................     2
      Letter, Conservation Coalition.............................     4
Rogner, John, Assistant Director, on behalf of Marc Miller, 
  Director, Illinois Department of Natural Resources, 
  Springfield, Illinois, ``Management and Control Plan for 
  Bighead, Black Grass, and Silver Carps in the United States''..    19

                        ADDITIONS TO THE RECORD

Biggert, Hon. Judy, a Representative in Congress from the State 
  of Illinois....................................................   187
Clean Wisconsin, Melissa Malott, Attorney, written testimony.....   189
Natural Resources Defense Council, Henry Henderson, Director, 
  Midwest Program, letter........................................   192
Watershed Council, Jennifer McKay, Policy Specialist, written 
  testimony......................................................   197
Wendella Boats, Captain Ragna Russo and Captain Robert Davis, 
  letter.........................................................   203

[GRAPHIC] [TIFF OMITTED] T4813.001

[GRAPHIC] [TIFF OMITTED] T4813.002

[GRAPHIC] [TIFF OMITTED] T4813.003

[GRAPHIC] [TIFF OMITTED] T4813.004

[GRAPHIC] [TIFF OMITTED] T4813.005

[GRAPHIC] [TIFF OMITTED] T4813.006

[GRAPHIC] [TIFF OMITTED] T4813.007

[GRAPHIC] [TIFF OMITTED] T4813.008



                     ASIAN CARP AND THE GREAT LAKES

                              ----------                              


                       Tuesday, February 9, 2010

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Donna F. Edwards 
presiding.
    Ms. Edwards. Good afternoon. I would like to welcome 
everyone to today's hearing. Thank you for braving the snow 
this afternoon.
    As we get started, I ask unanimous consent that the 
gentleman from Wisconsin, Mr. Petri, be permitted to 
participate in today's hearing of the Subcommittee on Water 
Resources and Environment. Without objection. Thank you, Mr. 
Petri.
    I would also like to ask unanimous consent that the 
following testimony be made part of the record: a statement 
from the Ranking Member of the Subcommittee, Mr. Boozman; a 
letter from the Passenger Vessel Association, dated February 5, 
2010; and a letter from the Conservation Coalition, dated 
February 5, 2010, that was to be submitted by our Committee 
colleague Representative Ehlers.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4813.009
    
    [GRAPHIC] [TIFF OMITTED] T4813.010
    
    [GRAPHIC] [TIFF OMITTED] T4813.011
    
    [GRAPHIC] [TIFF OMITTED] T4813.012
    
    [GRAPHIC] [TIFF OMITTED] T4813.013
    
    [GRAPHIC] [TIFF OMITTED] T4813.014
    
    Ms. Edwards. The Chair does not have an opening statement.
    With that, I would like to ask Mr. Petri if you have an 
opening statement.
    Mr. Petri. I have a brief one.
    I really want to thank you, Representative Edwards, for 
pinch-hitting so that we can get this moving forward. I suspect 
that we will be joined in a few minutes by the Chairman of the 
Full Committee, and we look forward to that.
    I would also like to thank our witnesses, particularly 
those from out of town, for being here; and I hope you don't 
have to stay longer than you originally planned. I know you are 
all working on that.
    I want to add that I was particularly happy that the panel 
includes Matt Frank, who has been our hardworking Wisconsin 
Department of Natural Resources secretary; and we very much 
appreciate your being a part of the panel as well.
    It is no exaggeration to say the issue of the Asian carp 
entry into the Great Lakes is one that has raised great fears 
on the part of our States surrounding the Great Lakes. Some 
predict that the carp population has the potential to disrupt 
the fundamental ecology of the Great Lakes, resulting in 
tremendous economic damage to our States and particularly our 
fishing industry.
    Yesterday, the Asian Carp Workgroup, a collection of State 
and Federal agencies, released their Control Strategy 
Framework. We all agree, and I would note that the Framework 
specifically states, that the goal is to prevent the 
introduction of carp into the lakes. Under this plan released 
yesterday, the opening of the locks would be minimized while a 
range of approaches are used to attack the carp population and 
prevent them from entering Lake Michigan.
    Much attention has been focused on a proposal originally 
from the State of Michigan to close the Chicago Sanitary and 
Shipping Canal. I am looking forward to hearing the views of 
the representatives from Michigan, Illinois, and my own State 
of Wisconsin on this issue.
    It seems to me that we do want to keep the carp from 
entering the Great Lakes, but there must be a way to do it that 
does not hurt the economy of one of our Great Lake State 
neighbors. If a lock is left open, however, we have to proceed 
with great urgency to find effective and permanent solutions to 
keep the carp out.
    I am interested in hearing both the short- and long-term 
strategies to prevent the introduction of the carp. We must 
have a coordinated response and a strong Federal-State 
partnership to combat this threat. So I would hope that this 
hearing would examine a range of options to keep the carp out. 
Certainly with our human ingenuity and know-how, we should be 
able to outsmart this fish.
    Given the interest in moving this hearing forward, I will 
end my statement here and express my appreciation once again to 
the witnesses for appearing before the Subcommittee under such 
trying weather circumstances. Thank you for your work to 
protect the Great Lakes, and I yield back the balance of my 
time.
    Ms. Edwards. Thank you, Mr. Petri.
    With that, I will introduce the witnesses in the order in 
which we will hear your testimony. Again, thank you very much 
for being here today, and we look forward to hearing your 
testimony.
    We will begin with Mr. Cameron Davis, who is the Senior 
Adviser to the Administrator of the United States Environmental 
Protection Agency, based in Chicago, Illinois. Major General 
John W. Peabody is the Commander of the Great Lakes and Ohio 
River Division of the United States Army Corps of Engineers in 
Cincinnati, Ohio. Assistant Director John Rogner, Illinois 
Department of Natural Resources in Springfield, Illinois. 
Director Rebecca Humphries, Michigan Department of Natural 
Resources and the Environment from Lansing, Michigan. Secretary 
Matt Frank, the Wisconsin Department of Natural Resources in 
Madison, Wisconsin. Professor David Lodge, Director, Center for 
Aquatic Conservation, and Professor of Biological Sciences at 
the University of Notre Dame, Indiana. Dr. Michael Hansen, 
Chair of the Great Lakes Fishery Commission, Ann Arbor, 
Michigan. And Mr. Del Wilkins, Vice President of Terminal 
Operations and Business Development at Canal Barge Company in 
Channahon, Illinois--I hope that is correct--and you are 
testifying on behalf of the American Waterways Operators. And, 
finally, Mr. Joe Brammeier, President and CEO of the Alliance 
for the Great Lakes in Chicago, Illinois.
    We will begin our testimony today with Mr. Davis.

       TESTIMONY OF CAMERON DAVIS, SENIOR ADVISER TO THE 
 ADMINISTRATOR, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY, 
 CHICAGO, ILLINOIS; MAJOR GENERAL JOHN W. PEABODY, COMMANDER, 
  THE GREAT LAKES AND OHIO RIVER DIVISION, UNITED STATES ARMY 
 CORPS OF ENGINEERS, CINCINNATI, OHIO; JOHN ROGNER, ASSISTANT 
      DIRECTOR, ILLINOIS DEPARTMENT OF NATURAL RESOURCES, 
 SPRINGFIELD, ILLINOIS; REBECCA HUMPHRIES, DIRECTOR, MICHIGAN 
   DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENT, LANSING, 
   MICHIGAN; MATT FRANK, SECRETARY, WISCONSIN DEPARTMENT OF 
 NATURAL RESOURCES, MADISON, WISCONSIN; DAVID LODGE, DIRECTOR, 
   CENTER FOR AQUATIC CONSERVATION, PROFESSOR OF BIOLOGICAL 
   SCIENCES, UNIVERSITY OF NOTRE DAME, NOTRE DAME, INDIANA; 
  MICHAEL HANSEN, CHAIR, GREAT LAKES FISHERY COMMISSION, ANN 
   ARBOR, MICHIGAN; DEL WILKINS, VICE PRESIDENT OF TERMINAL 
OPERATIONS AND BUSINESS DEVELOPMENT, CANAL BARGE COMPANY, INC., 
   CHANNAHON, ILLINOIS, TESTIFYING ON BEHALF OF THE AMERICAN 
  WATERWAYS OPERATORS; AND JOEL BRAMMEIER, PRESIDENT AND CEO, 
        ALLIANCE FOR THE GREAT LAKES, CHICAGO, ILLINOIS

    Mr. Davis. Thank you, Chairman Oberstar, Chairwoman 
Edwards, Representative Petri. Thank you very much, Members of 
the Subcommittee, for the opportunity to speak today on behalf 
of U.S. Environmental Protection Agency Administrator Lisa 
Jackson. Thank you for the opportunity to provide the agency's 
perspective on efforts to prevent Asian carp from becoming 
established in the Great Lakes.
    I would also like to recognize that Bill Bolen with EPA is 
here with me who has put in significant work on behalf of EPA 
on this issue.
    The administration continues to make restoration and 
protection of the Great Lakes a national priority, as evidenced 
by President Obama's significant investment in the ecosystem 
under his Great Lakes Restoration Initiative. EPA understands 
the extreme level of concern by the public and that the public 
feels for the Great Lakes ecosystem. We understand the concern 
that the public feels for their safety while recreating and 
concern for their jobs.
    We also have an urgent need to keep Asian carp from 
becoming established in the Great Lakes. As we move forward, we 
are working to keep Asian carp from becoming established in 
self-sustaining populations in the ecosystem. But to do that we 
require a coordinated, cooperative approach.
    I will address EPA's role first and the efforts in recent 
past and multi-stakeholder plans moving forward second in my 
testimony.
    First, EPA is tasked with coordinating Federal Great Lakes 
protection and restoration policies and efforts under Clean 
Water Act section 118 and Presidential Executive Order 13340. 
EPA has been doing this and will facilitate the integration of 
efforts by participating agencies and stakeholders moving 
forward.
    One of the best weapons we have against Asian carp is this 
coordinated, cooperative approach through which each agency 
remains accountable for the work under its authorities in order 
to ensure the most effective efforts possible. We will undercut 
ourselves if we inhibit such accountability and integration.
    This team approach has been successful and will continue to 
be successful if we give it a chance. It was successful in 
December when you saw participating agencies come together 
under the leadership of the Illinois Department of Natural 
Resources to undertake a rapid response action. The action was 
needed to defend the Chicago Sanitary Ship Canal against Asian 
carp migration while the Corps of Engineers' electric fences 
were down for maintenance. During that rapid response action, 
we saw Federal, Canadian, municipal, State, Provincial, 
binational, and municipal agencies, all of whom provided 
people, funding, and equipment, come together in what was by 
all accounts a highly successful effort despite numerous 
obstacles.
    This team approach also led to the draft Framework that was 
released this week, and I will talk about that in just a 
moment.
    That was the first role of EPA, coordination. The second 
role of EPA is that of funding.
    Nearly a year ago, President Obama proposed and, thanks to 
your help in Congress, passed the Great Lakes Restoration 
Initiative, an unprecedented investment for rehabilitating the 
Nation's largest fresh surface water system. EPA is stepping up 
its use of its funding authority, as evidenced in December when 
we announced that we were working with the Corps of Engineers 
to use $13-plus million for the Corps of Engineers to 
accelerate its work to help defend the Chicago Sanitary Ship 
Canal against carp migration. That work, as I am sure you will 
hear about from General Peabody, addresses bypasses and other 
ways in which carp can get into the Chicago Sanitary Ship Canal 
from adjacent waterways.
    And currently we are working with the other Federal 
agencies in Illinois to fast-track additional investments under 
the initiative that will address Asian carp populations that 
may be upstream of the electric barriers.
    I thought it was very important to talk a little bit about 
the EPA's role. Let me turn now to the next steps, because 
using that coordinated approach that I just talked about is so 
incredibly important.
    By using the coordinated team approach, participating 
agencies have come together to produce this draft Asian Carp 
Control Strategy Framework this week. We want to accomplish 
several things with this document.
    First, we want to provide direction without restricting 
ideas and initiatives. As we have learned over and over again 
in this situation the carp are not staying still. The 
circumstances underlying the carp migration continues to 
evolve. Likewise, we need to evolve with the situation. So one 
of the great benefits of this Framework is that it provides a 
unified direction for the agencies while not straitjacketing 
them so that they can remain deft in their responses.
    Second, with the Framework, we want to establish a multi-
teared defense. I cannot overstate just how important this is. 
I believe we cannot fight biology with engineering alone. I 
don't believe we can fight biology with any other mechanism 
alone. What this Framework does is establish a multi-
dimensional defense for the Great Lakes. So, rather than just 
use one tool in the toolbox, the Framework relies on 
engineering approaches, relies on chemical approaches, 
biological, managerial, and operational approaches so that we 
have a strong, vibrant effort that we are deploying to help 
prevent Asian carp migration.
    Third, we want to create space for every player to be 
involved in the effort. It is so incredibly important to 
understand that no one agency has all the answers here. What we 
have tried to do is essentially create a table around which 
everybody can sit and offer their most constructive 
recommendations and ways in which they can be part of the 
solution. In other words, this Framework belongs to everybody. 
It does not just belong to the agencies at this table and 
beyond.
    The Great Lakes region must unite in this effort. The 
December rapid response action illustrates just what we can 
achieve when we are working together. And the Framework is not 
intended to be final. It is intended to be continually improved 
upon. The first step is for everyone to have a hand in its 
development and its execution.
    I want to thank you, Members of the congressional 
delegation, for your concern, your compassion for protecting 
and restoring the Great Lakes. Administrator Jackson, our 
partner agencies, the States, and delegation all share one 
overriding imperative and that is to keep Asian carp from 
becoming established in the Great Lakes.
    Thank you.
    Mr. Oberstar. [presiding.] Thank you very much, Mr. Davis. 
I remember you well from your many years of engagement and 
involvement in Great Lakes water quality issues. You have been 
a real leader, a practitioner, feet on the ground, and you have 
given an excellent presentation this morning.
    I apologize to all the panels for being delayed. I had a 
number of other Full Committee activities that had been delayed 
because of the Washington snowfall, so I was attending to 
those.
    I want to thank Ms. Edwards for standing in as Chair as we 
began and Mr. Petri whose long-standing engagement in and 
contribution to issues in water quality on the Great Lakes is 
very well grounded and well informed and he is very much 
actively engaged.
    Also, on the Republican side, Mr. Ehlers, Mrs. Miller, who 
are long-time advocates for the quality of the Great Lakes 
water and protecting and enhancing that water quality out into 
the future.
    Members on the Democratic side, Mr. Hare, Mark Schauer, our 
newest Member from Michigan, who was active in the State 
legislature on water quality issues, all of those bring very 
great commitments and understanding to this issue. Mr. 
Costello, though he is not right on Lake Michigan or the Great 
Lakes, his district borders on the Mississippi River. He 
understands these issues directly.
    Before I go further, I would just like to make an 
observation. In 1953, 3 million pounds of lake trout were 
caught by sport fisherman and also commercial fishermen on the 
Great Lakes and 2.5 million pounds of white fish. The next 
year, 1954, that fishery crashed to 300,000 pounds of lake 
trout and 250,000 pounds of white fish in 1 year because of the 
lamprey eel. That was before the St. Lawrence Seaway was 
opened. That was due to vessels coming in the Welland Canal and 
discharging this creature that came from--most people suspect--
from the Black Sea. And it multiplied. It found a happy home. 
It adapted to freshwater and migrated all by itself without 
being transported by vessels from the Welland Canal segment, 
what is now the St. Lawrence Seaway, to the upper lakes.
    We said then, we have learned our lesson. My predecessor, 
John Blatnik, who was a Member of Congress at that time, was 
Chair of the Rivers and Harbors Subcommittee, a microbiologist 
himself by training. And as the Seaway opened he said, we need 
to prevent ballast water from transporting species into the 
lakes which are not native to the lakes or which can adapt to 
freshwater. We, the U.S., and the Canadians are now spending 
upwards of $6 to $10 million a year and will do so forever to 
contain the lamprey eel, spraying lampricide in their spawning 
beds where rivers discharge into the Great Lakes from both 
Canada and the U.S. side.
    For a while, pollution of those rivers dampened the 
population growth of the lamprey eel and the numbers declined, 
but that is not an adequate solution. We don't want polluted 
rivers dumping into our freshwater lakes and spreading the 
damage.
    So when the billions of dollars are spent on Lake Erie, $5 
million to clean up discharges into the Lake, dig up the bottom 
sediments, stop the toxins from coming in, airborne from as far 
away as Central America, DDT coming into the Great Lakes, 
having adverse effects on bald eagles, then the lamprey came 
back. And then we had relaxed our vigilance on inbound cargoes 
coming in on the salties, and we had the zebra mussel and the 
round-eyed goby and spiny akinoderm, and a host of other 
aquatic species and aquatic plants have taken up the water 
column in the Great Lakes.
    Now we have this huge threat that did not come into the 
lakes but may well find its way in. Those specimens provided by 
Dr. Ehlers give you an idea of how terrifying it is to be out 
on a boat amongst those carp thrashing about and actually 
jumping into boats.
    Now when I first heard about the carp, I said, well, maybe 
they will eat the lamprey, or maybe they will eat the zebra 
mussels. No, they don't. They filter all the food chain out of 
the water column; and one species has no stomach, so it must 
continuously feed. There is just a slipstream going right 
through the fish of all the water column. So it is taking away 
the food chain from the rest of the species in the water 
column. It is a treacherous, dangerous species that we cannot 
allow into the lakes.
    And Mr. Petri and I were exchanging notes that maybe the 
cold freshwater will inhibit the species. I have seen so many 
species adapt to the Great Lakes that I don't want to take that 
chance. No one wants to take that chance.
    And this has to be a Federal response. We cannot allow 
eight Great Lake States and the Province of Ontario to pass 
separate, disparate laws that may conflict with each other and 
work against each other. We have to have a national response. 
It has to be a unified response, and we have not had that in 
the past in reaction to other invasive species.
    So, Mr. Davis, I greatly appreciate your comments. You 
can't fight biology with engineering alone. This is not a final 
action taken by EPA but will continually be improved upon. That 
is the mind-set that each one of our presenters today needs to 
keep in mind.
    As for this committee, I know the lessons of the past. I 
know the treacherous fate that awaits the movement of those 
ugly critters into--they really are. I am not hurting their 
feelings, am I?
    But, some years ago, scientists from the Great Lakes and 
Russian scientists who have been studying Lake Baikal for 
decades met in Duluth; and we had presenters from the 
University of Wisconsin, Mr. Petri, and scientists from 
throughout the United States sharing information. Lake Baikal 
has about the volume of Lake Superior, except that it is 
deeper. It is a mile deep. Lake Superior is deep, 1,735 feet at 
its lowest point, which is 125 feet below sea level. But each 
is a unique specimen in the world of freshwater.
    And you think of freshwater, it is 1 percent of all the 
water on the face of the Earth. We have 20 percent of that 
freshwater in the Great Lakes. Lake Superior is half of the 
total Great Lakes' volume.
    So we have a unique responsibility here. We have got to 
marshal all the resources, all the brain power, all the 
technology we can, not only to prevent Asian carp from--and all 
their varieties--from getting into that freshwater treasure but 
to get the others out.
    General Peabody, thank you very much for being with us.
    General Peabody. Good afternoon, Mr. Chairman. Thank you 
very much for the opportunity to testify.
    Congresswoman Edwards, Congressman Petri, I am here to 
testify about the Corps of Engineers' efforts to defeat the 
risk to the Great Lakes posed by the migration of Asian carp 
through the Chicago area waterway system.
    The Army Corps of Engineers is committed to using all 
available authorities, capabilities, and resources to combat 
this invasive species. Because the Corps cannot do this alone, 
we are working intensively as part of the Federal, State, 
Provincial, binational, and municipal agency team through the 
Asian Carp Workgroup. We are actively exploring all options to 
defeat the threat, working within the Asian Carp Control 
Framework and using a strategy that has four prongs to it for 
the Corps of Engineers.
    The Corps' principal role has been to prevent or reduce 
migration of Asian carp by building, operating, maintaining, 
and improving the electrical dispersal barrier system in the 
Chicago Sanitary and Ship Canal. The fish barrier is the 
largest fielded operational electrical dispersal barrier in the 
world and constitutes a dynamic project with significant 
research and development components.
    Any assertions that the barrier system is or has been 
ineffective in restricting upstream movement of bighead and 
silver carp are speculative. The facts are that the fish 
barrier system has been in continuous operation since 2002 and 
has performed as designed, as far as we can tell.
    Monitoring Asian carp migration is an essential second part 
of the interagency effort. As part of a comprehensive review of 
the fish barrier's effectiveness in late 2008, the Corps 
recognized that we did not have adequate information about the 
location of Asian carp migration. As a result of canvassing 
academic and scientific communities, we learned of the 
environmental DNA research being conducted by the University of 
Notre Dame's Dr. David Lodge in association with The Nature 
Conservancy. We have been actively collaborating with him and 
his team ever since.
    Environmental DNA is an important emerging technology that 
is providing additional information to indicate the possible 
presence of Asian carp, but because Asian carp eDNA has not yet 
undergone complete, scientific, independent peer review, the 
results should be considered preliminary at this time. We are 
coordinating with Dr. Lodge and his team to execute the needed 
independent external peer review, which we hope to complete by 
June.
    This approach is consistent with the Corps' policy of 
ensuring that its technical, engineering, and scientific work 
undergoes an open, dynamic, and rigorous review process to 
ensure confidence in our decisions and policy recommendations. 
However, we are not waiting to take action even in the face of 
these uncertainties.
    Along with our partner agencies, the Corps is working to 
address the potential threat in a variety of ways. Using the 
efficacy study authorized in WRDA 2007, we are constructing 
emergency measures recommended and approved through an interim 
report that will be initiated this spring and completed this 
fall. These measures are designed to prevent fish bypasses via 
the flanking waterways of the Des Plaines River and the 
Illinois and Michigan Canal.
    The Corps is also working to develop additional measures to 
apply in the Chicago Area Waterways System this spring once 
warmer weather prompts increased fish activity. These measures 
are under study so have not been defined but may include 
modified operations at existing locks and controlling works, 
installing other types of barriers near the locks, controlling 
ballast water, and assessing options to block the alternate 
pathways of the Grand and Little Calumet Rivers. To be 
effective, any measures we take would have to be done in 
concert with the actions by other agencies on matters within 
their expertise or authority to eliminate or reduce the numbers 
of any Asian carp that may be in the vicinity.
    The fourth element of our strategy is to build on all these 
efforts with a long-term focus on the Interbasin Control Study. 
The Corps is undertaking this congressionally authorized study, 
formally called the Great Lakes and Mississippi River 
Interbasin study, to explore options and technologies that 
could be applied to reduce the risk of aquatic invasive species 
of any type that might transfer along multiple points between 
the Great Lakes and Mississippi River basins. This study would 
be developed in coordination with all interested stakeholders 
and will be based on science, leveraging the latest technology 
and the best available information.
    Mr. Chairman, this concludes my remarks. I look forward to 
answering the committee's questions. Thank you.
    Mr. Oberstar. I especially want to thank you, General 
Peabody, for coming such a great distance by car.
    General Peabody. Yes, sir.
    Mr. Oberstar. Seventeen hours?
    General Peabody. Sir, it was only 10. The view was nice. It 
was covered in snow. But this is an important hearing, sir, and 
I felt a compelling requirement to be here.
    Mr. Oberstar. I must say Mr. Petri and I chose a different 
route. Rather than going back to the safety of Minnesota and 
Wisconsin, where it is only below zero, we chose to stay here 
in Washington and risk life and limb in the snow, where they 
don't know how to remove it. They don't know what to do with 
it. They just walk on it. They count on the sun to melt it. 
They are counting on global climate change to melt this down.
    It is not happening. I have seen this for 40 years out 
here. They just don't know what to do with snow. Hell, when I 
grew up, we had a sidewalk snowplow because people didn't have 
cars in my day. But we know how to handle it.
    You are awfully good to make this journey. And, all of you, 
I thank you very much for making the effort to be here with us.
    Ms. Edwards, thank you. This is not the Chesapeake Bay, the 
Great Lakes, but your concern for both the Bay and its good 
health and your efforts over many years in the State 
legislature and elsewhere now as a Member of this Committee 
have marked you as an advocate for the environment, wherever it 
happens to be. Thank you.
    Mr. Rogner, give us the Illinois viewpoint.
    Mr. Rogner. Thank you, Mr. Chairman, Congressman Petri, 
Congresswoman Edwards, for this opportunity to testify on 
behalf of Director Marc Miller, Director of the Illinois 
Department of Natural Resources, on the role of the Illinois 
DNR in battling the Asian carp invasion. Since the early 1990s, 
we have been fully engaged in this effort.
    I will first mention a couple of the recent actions we have 
taken and then outline our action plans for the immediate 
future as we work with our Federal, State, and local partners 
to prevent the spread of Asian carp into the Great Lakes.
    But, first, I want to be absolutely clear on one important 
point. The Illinois DNR has a firm commitment to this task, and 
we remain unwavering in that regard. We have been working very 
closely with our partner States, including Michigan and 
Wisconsin, and also the Federal agencies to develop effective 
control strategies.
    Illinois has also contributed significant resources to 
controlling Asian carp. A premiere example is that we served as 
the local sponsor for the Corps of Engineers' electric barrier 
system, contributing $1.8 million to this effort.
    Most recently, Illinois DNR served as the lead agency for 
the successful, rapid response effort last December to prevent 
the upstream movement of Asian carp when the electric barrier 
system was shut down for maintenance. The unified response of 
the Great Lakes States and Provinces I believe was a shining 
leadership moment for our region and a prime example of how a 
small group of committed people can really make a difference. 
This unparalleled effort demonstrated that Federal, Provincial, 
State, and local partners can work together to help ensure that 
this invasive species does not establish sustainable 
populations in the Great Lakes and threaten this globally 
important ecosystem.
    Over 400 people worked together with contributions of 
supplies, equipment, and crews from partners throughout the 
basin. The rapid response team safely applied Rotenone to a 6-
mile stretch of the Chicago Sanitary and Ship Canal. The Corps 
of Engineers performed critical maintenance on the electric 
barrier system, and then we led the cleanup and removal of 
18,000 fish, including one Big Head carp. That one fish 
documented that Asian carp were at the barrier and could have 
moved past the barrier in potentially large numbers had we not 
conducted this action.
    It is important to note that, as we consider additional 
operations, the cost of this single action was over $3 million 
and would not have been possible without the substantial 
donations of equipment and labor from the other States and 
Provinces and financial support of our Federal partners. I want 
to thank everyone here at this table today for that critical 
support.
    There are several lessons that we have learned from this 
experience that I would lake to share with the committee:
    First, meeting this challenge will require even greater 
collaboration and levels of partnership. We must enlist the 
scientific and communication resources as well as the political 
leadership of every State and Province in the basin to join in 
this effort.
    Second, early and sustained outreach to key stakeholders, 
proactive communication strategies, and operational 
transparency must continue to be maintained as we move forward 
with our Framework strategy and operations.
    Finally, the collaborative approach that has been developed 
with our local, State, and Federal partners is working very 
well and we believe represents the best model for future 
efforts.
    I now wish to outline the actions to control Asian carp 
that the Illinois DNR proposes to begin immediately or as soon 
as funding can be secured. These actions will be conducted as 
part of the Asian Carp Workgroup that is already firmly in 
place.
    First, we will conduct a targeted Asian carp removal 
operation throughout the entire Chicago Area Waterways System. 
This includes the identification, containment, and removal of 
carp using standard fisheries gear, including netting, electro 
fishing, contract commercial fishing, and the use of toxicants 
such as Rotenone. These priority actions will be focused above 
the barrier in locations most likely to hold carp. We propose 
to begin these operations next week.
    The Illinois DNR will contract with commercial fishermen to 
operate below the barrier system to reduce populations and 
propagule pressure on the barrier system below it.
    Third, informed by Corps of Engineers' eDNA monitoring, we 
will conduct sampling and removal in hot spots of the Cal-Sag 
Channel. This includes the entire length of the Cal-Sag below 
the O'Brien lock and dam as well as the North Shore Channel 
below the Wilmette Pumping Station.
    We will participate with the Corps of Engineers' efforts to 
refine the eDNA technology so that it is a better predictor of 
both location and population size of Asian carp.
    In the next 90 days, the Illinois DNR will conduct a survey 
of all retail live bait locations to ensure that Asian carp 
minnows are not being sold in Chicago-area bait shops, 
something that is currently unlawful in Illinois. This effort 
is already under way.
    We have also identified several longer-term actions that we 
are proposing.
    We will prepare for rapid response contingency operations, 
including training, advanced procurement of supplies and 
necessary equipment.
    We will lead the Asian Carp Management and Control 
Implementation Task Force along with the U.S. Fish and Wildlife 
Service. This plan outlines 133 different actions that will be 
deployed nationally in all watersheds where Asian carp are a 
problem.
    We will participate in additional research into barrier 
effectiveness using tagged fish and advanced sonar technology.
    And then, finally, we propose to work with our sister State 
agency, the Department of Commerce and Economic Opportunity, to 
enhance commercial markets for Asian carp and investigate 
requirements for the use of Asian carp products for 
humanitarian relief purposes. These efforts will promote 
commercial fishing on the Illinois and Mississippi Rivers and 
help reduce population pressures on the electric barrier 
system.
    This is a problem that is not going to be solved by one 
State or one agency. As a region, we have a long and 
established history of using a proactive and collaborative 
approach. When we are divided, solutions to our problems can 
remain elusive. We believe our Great Lakes region is stronger 
when we work together in partnership to solve common problems, 
and Asian carp will not be an exception to this.
    The Illinois DNR looks forward to working with the other 
Great Lake States and Federal agencies in preventing Asian carp 
from establishing sustainable populations in the Great Lakes 
and in the larger problem of the exchange of invasives between 
the Great Lakes and Mississippi River basins. Thank you again 
for the opportunity to share our views.
    Mr. Oberstar. Thank you for that splendid presentation.
    I will have a couple of questions and comments later, but I 
think it is a well-thought-out approach, and your emphasis on 
the multi-disciplinary approach to the issue, that is what I am 
looking for. I think that is what people all throughout the 
lakes are looking for.
    The Carp Management and Control Implementation Task Force 
plan of 133 different actions, is that available to the 
committee?
    Mr. Rogner. Yes, it is. We can make it available.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4813.169
    
    Mr. Oberstar. Thank you.
    Director Humphries, thank you very much for being with us.
    Ms. Humphries. Thank you very much, Mr. Chairman, 
Congresswoman Edwards.
    Mr. Oberstar. Did you drive here too?
    Mr. Humphries. No, I did not.
    Mr. Oberstar. You caught the last Northwest Airlines flight 
out?
    Ms. Humphries. I did. I arrived yesterday. However, getting 
home might be much more difficult than it was getting here.
    Mr. Oberstar. Yes, leave quickly before they shut 
everything down.
    Ms. Humphries. I think that might be the game plan.
    Mr. Oberstar. It is much safer out there than it is here, 
believe me.
    Ms. Humphries. I appreciate the opportunity to testify 
today about the looming catastrophe that we face if Asian carp 
become established in the Great Lakes. I also appreciate the 
Members in the Michigan congressional delegation for their past 
work on this and other Great Lakes issues. I have been a 
conservation professional for over 30 years, and my role with 
the Michigan Department of Natural Resources and Environment is 
to protect our resources while maximizing recreational 
opportunities. Allowing Asian carp to populate our Great Lakes 
will destroy the resource as well as recreational 
opportunities, and we must act swiftly, collaboratively and 
wisely to address the crisis. Invasive species have already 
created havoc, as you have so aptly described earlier. Reports 
indicate that the cost of biological pollution from invasive 
species is both massive and it is rising. In the Great Lakes, 
total cost for treatment and control of zebra mussels alone 
reaches $100 million each year. The Great Lakes Fisheries 
Commission reports that for sea lamprey, program requirements 
are on the order of $30 million per year. Invasive species have 
profoundly changed the ecosystem of the Great Lakes, 
significantly impacted the Great Lakes sport and commercial 
fisheries and have hampered recreation, all of which have a 
negative effect on Michigan's economy.
    Let me give you one example, a little more recent example 
than we heard earlier. Lake Huron once had a vibrant salmon 
sport fishery with hundreds of charter boats attracting 
thousands of anglers each year to ports up and down its long 
coastline. Fishing derbies attracted additional anglers who 
launched their boats and kept their boats at local marinas, but 
invasive zebra and quagga mussels, which are Eurasian invaders, 
have caused the collapse of the salmon population and thus the 
sport fishery. This was a several million dollar industry, and 
it is gone.
    Michigan has taken aggressive steps to stop the further 
spread of these foreign invaders, including requiring Great 
Lakes ships to adhere to ballast water management practices, 
enacting legislation requiring all oceangoing ships to obtain a 
permit for ballast water discharges, taking legal action to 
address ballast water issues, including successfully defending 
our State laws in Federal court and challenging Federal 
agencies for their failure to appropriately use existing 
regulatory authority to act, and by administering State 
regulatory programs to control aquatic nuisance species in our 
lakes and our rivers, including restrictions on the transport 
of invasive species of fish, establishment of a list of 
invasive species prohibited in Michigan and participation and 
actions to control sea lamprey in the Great Lakes and its 
tributaries.
    Despite our best efforts, Asian carp are now at our 
doorstep. Michigan has its own steps and has taken those steps 
to prevent Asian carp from entering the Great Lakes. We have 
contributed financially to the construction of the electrical 
barrier in the Chicago Sanitary and Ship Canal, and we have 
prohibited the possession of live Asian carp in the State. We 
also participated in the actions this past December that 
treated the canal to remove Asian carp prior to the maintenance 
of the second electrical barrier. I cannot stress the following 
in simpler terms. Once an invasive species gets established in 
the lakes, we cannot eradicate it. The threat of Asian carp 
must be treated as a crisis and steps must be implemented 
immediately to address them. As early as 2003, scientists, 
government officials and stakeholders were calling for 
ecological separation to the Great Lakes and the Mississippi 
River watershed, but we did not act quickly enough.
    Short-term fixes have become long-term projects. For 
example, the installation of the second electrical barrier took 
over 6 years and is still not fully operational. It took 
several years to ban the importation of black carp and silver 
carp under the Lacey Act and bighead carp are still not covered 
under that Act.
    I started by saying that we must act swiftly, cooperatively 
and wisely to address the threat posed by Asian carp.
    Here are my recommendations to meet those objectives. We 
must immediately take all available measures, consistent with 
protection of public health and safety, to prevent the 
migration of bighead and silver carp into Lake Michigan, 
including closing and ceasing operation of the O'Brien lock and 
the Chicago lock until a permanent ecological barrier is 
constructed between the Great Lakes and the Mississippi River 
Watersheds. The Army Corps of Engineers must have the authority 
to close the locks on the emergency basis and also a permanent 
basis if necessary.
    We must initiate studies to be completed by the end of this 
year to examine the feasibility of transferring cargo via other 
transportation systems. We must operate other water control 
structures near Lake Michigan, the O'Brien lock, the Chicago 
controlling works and the Wilmette Pumping Station in a manner 
that will not allow fish to pass into the lake.
    We must install inner barriers at other locations this 
year, including barriers between the Des Plaines River and the 
canal and the Indiana Harbor and Burns Ditch from the Grand 
Calumet and Little Calumet Rivers to eliminate the potential 
for flooding between these two watersheds. We need to complete 
additional studies related to the biology and the ecology of 
carp and predictive models to determine the areas at highest 
risk for colonization within the Great Lakes. We need to 
provide additional dollars for continuous monitoring of carp 
based on risk analysis with funding on reserve for chemical 
treatment as a rapid response mechanism is warranted, and we 
must communicate with the States any actions and data in a 
timely manner.
    Operating electrical barrier 2a at optimum voltage and 
completing electrical barrier 2b this year is important. In 
developing and implementing plans for a permanent solution to 
the problems that would ecologically and physically separate 
the carp-infested waters of the Mississippi watershed from the 
Great Lakes. We also have to be very proactive with our 
citizens so that they don't knowingly or unknowingly move these 
fish into waters where they are not found now. We all treasure 
the Great Lakes, and we all share a commitment to its continued 
vitality.
    Now we must share in a similar commitment to more 
aggressively move forward and stop the spread of Asian carp. I 
have additional attachments that I have included in my 
testimony. I would like to thank you, and I am available to 
take any questions you might have.
    Mr. Oberstar. Thank you very much for the wide-ranging 
statement. Now we will proceed with Secretary Frank.
    Mr. Frank. Thank you, Mr. Chairman. Thank you for holding 
this hearing, Representative Petri and Representative Edwards. 
We really appreciate you bringing the attention to this issue 
that it truly deserves. I want to start off by thanking this 
Committee and acknowledging the Congress and the President's 
initiative on the Great Lakes Restoration Initiative. I can't 
tell you how excited we are by that initiative. You know, we 
have been talking about these issues, as you have pointed out, 
Mr. Chairman, for a long time. This unprecedented opportunity 
we have, I want to let you know that we are all working hard 
together to make sure that that money is put to good use. It is 
long overdue, and we are committed to improving the Great Lakes 
with the resources that Congress and the President have set 
aside. So that is a very positive thing. You eloquently set 
forth the history of how we have been dealing with invasives in 
the Great Lakes, from the lamprey eel to zebra and quagga 
mussels to the round goby to VHS.
    I can tell you, all of our agencies have been struggling 
with these issues for some time, and there is a great deal of 
frustration that we all have and that the people of our States 
have to cut off the flow of these invasives into the Great 
Lakes. This is a threat not only to our Great Lakes, but it is 
a threat to all our inland waters. Once they are in the Great 
Lakes, they move inland, and this becomes a problem not just in 
our States, but then throughout the United States. Whether it 
is the vector in the Mississippi River or the Great Lakes, this 
truly is a national issue.
    Before I talk about the specific issue at hand, I do want 
to follow up on Director Humphries' comments about ballast 
water because this is an incredible opportunity, I think, to 
really reemphasize how important it is to deal with that issue 
as well. The Congress last year, the House of Representatives 
passed a strong ballast water measure. It passed overwhelmingly 
in the House. It did not get passed through the Senate. And 
that was following on years of inaction by Federal agencies. A 
new administration is in town. The Coast Guard is taking a 
close look at this issue.
    Wisconsin and some other States have submitted comments to 
the Coast Guard about regulation. We are glad to see that the 
Coast Guard is taking this issue more seriously, but we are 
concerned that we need to get strong action on ballast water. 
We would welcome this committee's oversight of what is going on 
with the ballast water issue so that we can finally move on 
that issue. We know that ballast water continues to dump new 
invasives into our waterways, and we need to deal with it. We 
need to deal with it effectively.
    Wisconsin passed a very strong ballast water permit 
recently, but we still think the best solution is a strong 
Federal standard that goes beyond IMO to make sure that we are 
treating this ballast water so we are not continuing to dump 
new invasives. It is a critical issue, and I appreciate having 
the opportunity just to raise that as another important issue 
we are dealing with right now.
    Now as to Asian carp, there is a lot that has been said. I 
will try not to replow ground. A lot of important points have 
been made. We do think it is important that there is Federal 
agency coordination, and again, I applaud the White House for 
their leadership. We had a summit yesterday. The Governors came 
in to meet with Federal agencies. We are encouraged that this 
is being taken seriously. We are encouraged that there are 
resources being devoted to this serious issue.
    Having said all that, we have a sense of real urgency and 
concern about where this is all going. We can all think that we 
are doing as much as we can, but the fact is, we may not have 
much time, and we really need to make sure that we are looking 
at all alternatives. I think an immediate expansion of 
monitoring and fish control efforts in the Chicago waterways 
system are absolutely critical. We need, as has been said, to 
get the second barrier up. We share Michigan's frustration that 
we have a little different perspective on that issue than some 
other folks do. It is long overdue.
    It has taken too long, and we were pleased to hear 
yesterday that the Corps said that it would be up and running 
this year. That needs to get done. But having said all that, we 
need to look at the ecological separation between the Chicago 
waterway and the Great Lakes. There are a number of vectors. We 
agree it is a complex issue. There is another number of vectors 
that have to be closed off. We think there is good initial work 
that is being done. But we need to move faster, and the issue 
of the locks, what to do with the locks is certainly out there.
    It is an easy call from Wisconsin's perspective. We are 
concerned about commerce and the health of the Great Lakes. We 
think the lock should be closed. We hope that people don't see 
that as some sort of simplistic answer, that even in closing 
the locks, you don't guarantee that fish don't get through 
there. They were designed for navigation, not as a fish 
barrier. Also there are other vectors that have to be dealt 
with. So in advocating for that, we do not mean to demean all 
of the other things that are in some of the Federal planning 
that we have seen so far.
    We really have to work together on this, and I can't stress 
enough how urgent this is and that we need to move from talk to 
action. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you very much, Mr. Frank, Mr. 
Secretary, for your splendid presentation and your broad view 
of the issue and the approaches.
    Professor Lodge, I want to say, I read with great interest 
the release of your research work on DNA. I look forward with 
great interest to your testimony.
    Mr. Lodge. Thank you very much. I will draw your attention 
to the PowerPoint that I will use this afternoon.
    Chairman Oberstar, Ms. Edwards, Mr. Petri, thank you very 
much for the opportunity to talk about what my collaborative 
team and I have learned in the last few months about Asian carp 
in the Chicago waterway and for the opportunity to share our 
perspectives on what that means. I was last before this 
Subcommittee about 2 years ago to testify about the impact of 
ship-borne invasions, the ballast water issue that Mr. Frank 
was just talking about. And in that testimony, I pointed out to 
the Subcommittee that while ships were a major contributor of 
alien species to the Great Lakes, they were not the only one. 
And in fact, that canals, like the one that we are here to talk 
about today, are a major pathway by which harmful alien species 
gain access to the Great Lakes and, indeed, by which other 
species leave the Great Lakes. In my written testimony, I 
outlined answers to six questions, and for the sake of brevity, 
I am going to focus only on four questions in my verbal 
testimony this afternoon. The first question I want to answer, 
which stems directly from the work that the Army Corps has 
supported and that General Peabody referred to, is our work in 
the canal in the last few months on how close are the carp to 
Lake Michigan. Now before I really answer that question, I need 
to say a few things about the method by which we have learned 
where silver and bighead carp are in the canal system.
    We have used some very standard technologies from molecular 
genetics but we have combined those protocols into an unusual 
combination and a new application to surveillance of Asian 
carps in the canal. You can think about what we have done as 
the environmental protection equivalent of what forensic 
experts do every day and what our justice system has in many 
ways come to rely on, for example, to determine whether a 
suspect was at a crime scene. We and Asian carps leave a trail 
of DNA behind us, and it is that trail that we have been 
detecting in the Chicago waterway.
    We have invited an audit, a review, which is in many ways a 
more rigorous peer review than is typical for scientific work. 
That review was completed by the EPA, an independent audit 
team. They issued their final report on our work this past 
week, and I have provided that to the Committee to become part 
of the permanent record of this hearing. The conclusion of the 
EPA audit team--I have put one summary statement up here on 
this slide--the bottom line is that it is uncontroversial that 
we are detecting the DNA of only silver and bighead carp and 
secondly, this EPA audit team, including experts in molecular 
genetics, concluded that our results are actionable in a 
management context.
    So with that as a background--and I am happy to address any 
questions you may have in a more detailed nature about that--
what we have discovered, unfortunately, in recent months is 
that both silver and bighead carp are in the waterway north of 
the electric barrier. I have just indicated with these red 
blobs on that map where we have detected either silver or 
bighead carp, and you have received a more detailed map in my 
written testimony.
    The most troubling result is that silver carp are not only 
at the doorstep of the lake up in Wilmette in northern Chicago, 
but, in fact, appear to be in Lake Michigan or at least in 
Calumet Harbor opening to Lake Michigan. Bighead carp are not 
yet--at least we have not yet detected, and I hope we do not 
detect bighead carp DNA in the lake. However, my conclusion 
from these data is that it is not inevitable that an invasion 
of these species--either species is underway, and I believe 
that an invasion, that is establishment of a self-sustaining, 
reproducing and spreading population, is still possible to 
prevent. That begs a question, however, about how many carp 
will it take to launch an invasion?
    The short answer is, I don't know, and no one knows. The 
slightly longer and more helpful answer is that it is a numbers 
game. If the goal is to prevent invasions in Lake Michigan, 
then the proximate management goal has to be to prevent 
additional individual fish of either species from entering Lake 
Michigan. It is not inevitable that an invasion by either one 
of these fishes will occur, and our most recent results finding 
silver carp in the lake make it even more urgent that steps are 
taken to prevent additional fishes from entering the lake.
    The third question I want to address is, Is this issue only 
about Asian carps? And the answer to that is no. I think that 
is a very important point for the Committee to consider. This 
canal has already been a pathway by which very harmful species 
which Chairman Oberstar referred to earlier on--zebra mussels 
and quagga mussels--this canal is how those species have 
gotten, for example, to California. It is how they first 
escaped the Great Lakes and then made their way across the 
country by other means. But their escape of the Great Lakes was 
made possible by this canal. This canal is a two-way highway 
for many species. So these species that I am picturing have 
already used it. There are many other species poised to use the 
canal. They either have or are poised to do so. And I will 
highlight just a few of those on this slide. Spiny water flea, 
already mentioned by Chairman Oberstar. Water chestnut, a 
highly damaging aquatic weed. A variety of parasites and 
pathogens that can be deadly to a variety of fish species. New 
Zealand mud snail, the bloody red shrimp. All of these species 
are in the Great Lakes but not yet in the Mississippi River 
Basin. And, of course, going the other way, I don't need to 
tell you about bighead and silver carp but don't forget there 
are other species waiting to go in the same direction. 
Brazilian water weed, a very expensive water weed further south 
could use the canal to go north. And then a final example would 
be the northern snakehead, present in the Mississippi River 
basin but not yet present in the Great Lakes.
    So it is very important that you look at this canal and not 
just as a conduit for Asian carps, but as a conduit for many 
species, past and future. Therefore, any management actions 
will bring benefits far beyond the benefits of preventing 
damages by the Asian carps. I will just finish by suggesting 
what I believe are some of the management implications of this, 
and I won't go through all of this. In fact, many of the 
previous speakers have already addressed these and the new 
framework that came from the administration yesterday includes 
many, but not all of, these points.
    I draw your attention in particular to the last one which I 
think Mr. Brammeier will also address, which is that especially 
when you consider this whole suite of species that I mentioned, 
it is very important to think about the benefits of the canal 
being far beyond management taken with respect to Asian carps. 
Thank you.
    Mr. Oberstar. Thank you very, very much, Dr. Lodge, for 
that excellent presentation. And all your accompanying data 
will be concluded in the Committee record, in the hearing 
record.
    And now Dr. Hansen. Welcome, and thank you for joining us.
    Mr. Hansen. Mr. Chair and Members of the Subcommittee, 
thank you for inviting me to discuss Asian carp and the threat 
they pose to the Great Lakes.
    I am Mike Hansen, Chair of the Great Lakes Fishery 
Commission. I am also a professor of fisheries at the 
University of Wisconsin-Stevens Point.
    The commission understands the destruction that invasive 
species cause to ecosystems. Since the 1950s, the commission 
has been responsible under a treaty between the U.S. and Canada 
to control the sea lamprey, an invasive species that destroyed 
fisheries after invading the upper Great Lakes in the 1920s.
    The Great Lakes are tremendously valuable and worth 
protecting. Annually, Great Lakes fisheries are worth more than 
$7 billion and have enormous cultural value to the diverse 
peoples who live and fish in the region.
    Globalization and trade have provided more species more 
opportunities than ever to invade waters of the United States. 
Currently, more than 180 non-native species have entered the 
Great Lakes, and harmful species have cost the region billions 
of dollars. Permanent impacts on the environment and benefits 
our children will never see are unquantifiable.
    We are concerned about Asian carp because we have seen what 
these fish have done to the Mississippi and Illinois Rivers. 
Asian carp spread rapidly by reproducing in large numbers to 
become the predominant species in an ecosystem. Asian carp eat 
plankton that is the foundation of food webs. Once loose in the 
wild, where plankton is abundant but predators are few, Asian 
carp have proliferated. Strong dietary overlap between Asian 
carp and native fishes suggest that Asian carp could outcompete 
native fish for food, especially because an Asian carp can eat 
40 percent of its body weight each day.
    Between 1991 and 2000, bighead carp increased exponentially 
in the Illinois River. So, by fall 1999, Asian carp made up 97 
percent of the biomass of a fish kill in a national wildlife 
refugee near St. Louis. Today, commercial fishers in the 
Illinois River regularly catch more than 25,000 pounds of 
bighead and silver carp each day--an amazing amount of fish.
    The silver carp has a unique characteristic that makes it 
particularly dangerous to humans. The sound of a motorboat 
startles the fish into leaping up to 10 feet out of the water. 
These flying fish, some weighing more than 20 pounds, are 
projectiles that land in boats, damage property, and injure 
people.
    To understand potential risks of Asian carp to the Great 
Lakes, the Department of Fisheries and Oceans-Canada and the 
U.S. Geological Survey assessed the risk of invasion by Asian 
carp. Specifically, these risk assessments tell us the 
following: First, Asian carp are likely to tolerate the climate 
of the Great Lakes because the basin's climate is within the 
fish's natural rage. Second, Asian carp feed on plankton, the 
low end of the food web, so they eat the same food that most 
other fish eat for their own growth and survival. Third, the 
Great Lakes Basin contains numerous tributaries with suitable 
spawning habitat and large areas of vegetative shorelines, 
which they need, particularly in large bays, river mouths, 
connecting channels, and wetlands.
    Silver carp will likely be harmful because nearly 1 million 
boats and personal watercraft operate in the lakes, placing 
millions of people in potential contact with silver carp. 
Overall, people of the Great Lakes Basin should be deeply 
concerned about the possible negative effects of Asian carp.
    Let me conclude with some thoughts about policy responses. 
Other witnesses during today's hearing described actions to 
prevent Asian carp from entering the Great Lakes. The Great 
Lakes Fishery Commission has been a supportive partner in all 
of these efforts. I would like to especially thank Cameron 
Davis for his determination to coordinate a multi-agency 
response.
    The question remains, however, what can be done if Asian 
carp enter the Great Lakes? Unfortunately, the answer is not 
much, at least not much at the moment, because control 
mechanisms do not currently exist for Asian carp. While current 
work to prevent Asian carp migration is appropriate, the only 
solution to this problem is to achieve what is called 
"ecological separation" by altering the canal system to prevent 
species of any kind from moving between the Mississippi River 
and Great Lakes Basins.
    We appreciate the work, which we cofunded, that Mr. 
Brammeier and his colleagues conducted to take a good, hard 
first look at ecological separation. He will describe that in 
more detail shortly.
    But this is just the start. The Water Resources Development 
Act of 2007 authorized the U.S. Army Corps of Engineers to 
conduct a full-scale engineering analysis to identify and 
propose ways to achieve ecological separation. We urge Congress 
to clearly express that the end objective is ecological 
separation, not to reduce the risk or try to achieve separation 
while maintaining the status quo. The goal must be ecological 
separation.
    We also urge Congress to provide the Corps with adequate 
resources and authority to accelerate development and 
implementation of solutions to achieve ecological separation. 
The Great Lakes cannot wait.
    Mr. Chair, I again thank you for holding this important 
hearing. I appreciate the committee's interest in taking steps 
necessary to protect the Great Lakes from Asian carp and other 
invasive species.
    Mr. Oberstar. Well, you are so right, Dr. Hansen; the Great 
Lakes can't wait. And, as I said at the outset, we thought we 
learned that lesson 50 years ago. We are learning it all over 
again with every one of these new species that come into the 
Great Lakes. This is not an inexhaustible resource.
    Mr. Wilkins, thank you for being with us. You may proceed 
with your testimony.
    Mr. Wilkins. Thank you, Mr. Chairman. Good afternoon to 
you, Mr. Chairman and Ranking Member Mr. Petri. Thank you for 
the opportunity to testify today on behalf of the American 
Waterways Operators, the national trade association for the 
tugboat and barge industry.
    I am vice president for Canal Barge Company, a family-owned 
business headquartered in New Orleans that has been in business 
for 76 years. Canal operates throughout the inland waterway 
system and also owns Illinois Marine Towing Corporation, a 
Chicago-area towing and barge fleeting company.
    I would like the Subcommittee to know, first and foremost, 
that the members of AWO fully support robust measures to 
protect the Great Lakes from the spread of Asian carp. As we 
put these protections into place, we must also protect human 
health and safety and maintain the free flow of waterborne 
commerce that is critical to our economy.
    Our fundamental message is this: The choice whether to 
protect the environment or ensure the continued flow of vital 
maritime commerce is an unnecessary one and, quite frankly, a 
choice our Nation cannot afford to make. We are confident that 
congressional leadership, coupled with Administration and 
stakeholder cooperation, will lead to us a sustainable long-
term solution that protects the Great Lakes ecosystem without 
sacrificing critical jobs and the environmental and economic 
benefits of barge transportation.
    Mr. Chairman, finding such a solution is critical because 
inland waterways navigation is essential to our economy, and it 
is the safest, most economical mode of domestic freight 
transportation with the smallest carbon footprint of any mode. 
Barging plays a key role in the transportation system by 
reducing congestion on our overcrowded highways and rails. And 
as commercial users of the inland waterway rivers, coastal 
waterways, and Great Lakes, our industry has a deep commitment 
to environmental stewardship.
    Since 2004, our industry has cooperated with Federal and 
State agencies concerning the safe operations of the electric 
fish barriers currently on the Chicago Sanitary and Ship Canal. 
Our industry has also promoted the recovery of threatened and 
endangered species and established practices to reduce 
emissions from tank barges.
    Cooperative and balanced solutions to the problems of 
invasive species are, in fact, achievable. An integrated 
approach can arrest the advance of the Asian carp, protect the 
Great Lakes ecosystem, and maintain safe, efficient, and 
reliable navigation on vital commercial waterways.
    My testimony will now address what we feel are nine 
specific actions as part of that integrated strategy.
    First, expedite construction of the Barrier 2-B, which is 
on the Chicago Sanitary and Ship Canal. Secondly, design and 
implement bubble and acoustic fish barriers to prevent Asian 
carp from moving into the Great Lakes, as commonly done in 
Europe. Thirdly, immediately complete structures to stop carp 
from entering the Great Lakes during floods.
    Fourth, conduct tag-fish research to validate the 
effectiveness of all primary and secondary barriers, including 
electric, bubble, and acoustic barriers. Fifth, employ 
consistent measures to identify the location of this invasive 
species, such as electric fishing or electrofishing, netting, 
and commercial fishing that do not delay the movement of 
commerce. Sixth, fund research on Asian carp specific 
biological control agents, which has proven to be an effective 
strategy with other invasive species on the Great Lakes.
    Seventh, sample barges and other vessels for juvenile carp 
and their eggs. We are currently serving on a public-private-
sector working group to conduct such sampling and ensure our 
that our industry is not a vector to move this invasive 
species. Eighth, impose further restrictions on the importation 
of aquatic invasive species. And, finally, conduct more 
scientific studies about the ability of carp to survive within 
the Great Lakes ecosystem.
    Mr. Chairman, proposals have been made recently in both 
legislation and litigation to permanently close the locks on 
the Chicago Waterway System. We strongly oppose lock closures. 
Recent proposals by Federal agencies to implement a program of 
scheduled lock closures are equally troubling because they will 
impede essential commerce without stopping the advance of the 
carp. Let me repeat that and underscore that: Closing the locks 
just will not stop carp.
    Speaking personally, closing the locks would also be 
devastating to Illinois Marine Towing Company and may even put 
that company out of business, with a loss of a hundred or more 
jobs for our shore-side and vessel operations. Other vessel 
operators who work in the same Illinois waterway in the same 
region who provide family-wage employment to hardworking 
Americans would likely suffer the same fate. Together with 
State, Federal Government agencies, and concerned stakeholders, 
we feel that we can develop effective solutions to stop the 
Asian carp in a way that doesn't sacrifice jobs at a time when 
jobs are on such short supply.
    Mr. Chairman, this prestigious Committee has a history of 
leadership and finding solutions to complex and challenging 
public policies without framing them as an either/or decision. 
The American Waterways Operators has committed to working 
cooperatively to ensure a balanced approach to environmental 
stewardship and economic sustainability for the Great Lakes and 
the western rivers. We are convinced that both goals can be 
realized.
    We thank you for the opportunity to present today, and we 
certainly are here to answer any of your questions and 
concerns.
    Mr. Oberstar. Thank you very much for testifying on behalf 
of the waterways users. I will come back to you with some 
further questions and comments after we hear all the testimony.
    Mr. Brammeier, Alliance for the Great Lakes, please 
proceed.
    Mr. Brammeier. Thank you, Mr. Chairman and Congresswoman 
Edwards and Congressman Petri, for hosting the hearing today.
    My name is Joel Brammeier, and I am the president and CEO 
of the Alliance for the Great Lakes. I am also a steering 
committee member of the Healing Our Waters Coalition.
    I and dozens of dedicated citizens and experts have, for 
more than a decade, advised Federal agencies and the State of 
Illinois on how to stop Asian carp from establishing in the 
Great Lakes. And many of those folks are in this room today. As 
Dr. Lodge said, we can accomplish that task, but only if every 
choice we make today is dedicated to the permanent prevention 
of Asian carp invasion.
    Behind nearly every invasive species are the hands of human 
intervention. The noble intent for the artificial connection to 
the Mississippi River at Chicago was protection of the city's 
drinking water. As the 19th-century city grew, sewage-laden 
rivers flowed into Lake Michigan. The State of Illinois 
reversed the rivers, binding the ecology of the Great Lakes and 
the Mississippi River and ultimately leading this potentially 
devastating invader to the shores of Lake Michigan.
    Now, 120 years on, we have added layers of complexity to 
that system. 2.1 billion gallons of water streams past those 
channel walls every day. The system allows more than 35,000 
recreational boat movements and supports a slowly declining 
traffic of 20 to 25 million tons of bulk commodity movements 
every year.
    The city has built itself with pride on this backbone of a 
19th-century engineering marvel. This connection opened the 
continent to trade, and it kept the city's rivers from 
reverting to open sewers. But the stark reality that the system 
created an aquatic superhighway for Asian carp and other 
invaders calls the question of whether it is as critical today 
as it seemed 120 years ago.
    On the threat itself, others have spoken to that, and I 
will only say that the only reasonable response to the 
biological pollution of invasive species is zero tolerance. 
There is no diluting their impacts to some unnoticed background 
level. And even if the electrical barriers operate as designed, 
they will not last forever and they will not achieve 100 
percent effectiveness.
    The permanent solution is not technology but what we call 
"ecological separation" or, simply, no movement of live 
organisms between the Great Lakes and the Mississippi River via 
the canals, up to and including permanent physical barriers.
    Now, this simple idea seems audacious. A close look 
illuminates that sewerage treatment operations over 30 years 
have dramatically reduced the need for a direct connection 
between Chicago and Lake Michigan. Commodity deliveries and 
loading are clustered at specific parts of the waterways with 
comparatively little traffic moving through downtown Chicago or 
into Lake Michigan itself. In fact, less than 1 percent of 
freight movement in metro Chicago moves between the Mississippi 
River and Lake Michigan. Barely more than a thousand 
recreational boats move through Lockport Lock annually. We can 
simply no longer afford to assume that 71 miles of century-old 
canals are required to get the job done if the job creates a 
massive liability for the Great Lakes.
    Now, a feasible separation scenario can accommodate the 
vast majority of commodity traffic. It can provide new methods 
of moving recreational boaters. And, most importantly to this 
committee, it can serve as a one-time payment for 100-percent 
effective permanent protection.
    Now, this is not a new concept. A 2003 gathering of experts 
from around the world in Chicago set an agenda beyond the 
electrical barriers and agreed that stopping water was the only 
way to stop the stream of invaders.
    Now, we are encouraged that the Corps has committed to an 
interbasin feasibility study, but we are concerned that few 
steps have been taken besides agency coordination nearly 2 
years after original authorization. The unclear analysis by the 
Corps of the economic impact of short-term changes to the 
waterway does not herald a good start to this process. A rapid, 
transparent process that stands up to citizen and expert 
scrutiny is the only way to yield meaningful results.
    To that end, Federal agencies should do three things: 
immediately execute a short-term contingency plan with a clear 
and singular goal of no establishment of Asian carp; take all 
action necessary, including temporarily altering navigation, to 
prevent movement of existing carp populations; and, probably 
most importantly, expedite the Chicago portion of the 
authorized Interbasin Transfer Study to be completed by 
September 30, 2011, with a clear goal of 100 percent 
prevention.
    We understand the damage that has already occurred. We can 
predict irreparable harm to the Great Lakes if we fail. We have 
the tools and the knowledge in hand to stop this problem before 
it starts. But a solution is being held hostage by outmoded 
infrastructure and assumptions that how business has been done 
is the way business has to be done.
    The engineering feat of the Chicago waterway protected Lake 
Michigan, but it transferred costs to others, costs that were 
not apparent in 1890 but are a hole in the wallet today. This 
backbone of the largest Great Lake's city must either stretch 
and strengthen with time or it will collapse under its own 
weight. I look forward to working with this Subcommittee and 
everyone engaged on this matter to create a legacy for the 
waterway that outlasts both me and the original projects.
    Mr. Chairman, thank you for holding this hearing, and I 
look forward to assisting on any actions the Committee can take 
to support this effort.
    Mr. Oberstar. Thank you very much, Mr. Brammeier.
    And to all of the witnesses this afternoon, I would say 
that, were it not for the storm of the half-century, most of 
the chairs here would be filled. The level of Member interest 
and concern about this issue of the Asian carp in the Great 
Lakes is very high. I had numerous requests from Members, 
nearly everybody in the Subcommittee. And those who are not on 
our committee, those who serve on other committees are very, 
very deeply concerned. They are hearing from their 
constituents. They are seeing the news reports. This carp has 
galvanized public concern like no other such issue except, 
perhaps, for the 1968 fire on the Cuyahoga River that moved the 
Nation and the Congress eventually to pass the Clean Water Act 
of 1972.
    Coleridge, in "The Rime of the Ancient Mariner," describes 
the ocean as dark, endless, heaving, and mysterious. Dark it 
certainly is. So is Lake Superior on its worst days. Heaving in 
the midst of storms, typhoons, hurricanes. We are beginning to 
unlock the mystery of the oceans, going deeper than ever 
before, going down to the bottom of the Marianas trough, 
finding vents in the ocean that have temperatures of 700 
degrees-plus with creatures still living there.
    But endless the oceans are not. It was a form of image by 
Coleridge. And neither are the Great Lakes endless. We haven't 
unlocked all of their mysteries, but we are getting there. But 
faster than we can address those mysteries, the species that 
don't belong there, that were not there to begin with, are 
getting ahead of us.
    And the lakes can't heal themselves. The native species 
can't protect themselves against these invasive predators or 
plants, like purple loosestrife and others. It is only us, who 
are the custodians, who can take these actions.
    And I cited earlier the lamprey eel. So many efforts were 
made to find something to do with the lamprey--catch them, 
smoke them, export them to Sweden. The Swedes had an appetite 
for them for a while, and then that waned. Norwegians thought 
that might be a delicacy, but soon they abandoned it in favor 
of lefse. And there just isn't anything you can do with these 
species.
    I mentioned the DDT. I held hearings on the U.S.-Canada 
Great Lakes Water Quality Agreement in 1985, and we found that 
the United States had banned DDT after Rachel Carson, and yet 
it was being exported to Central America, sprayed on banana 
plantations and the aerosols were caught in the upper 
atmosphere. And in 14 days, faster than President Reagan said 
the Sandinistas could reach the U.S. border, DDT was in the 
Great Lakes. And bald eagles were eating the fish that absorbed 
the DDT, and the bald eagle eggs weren't forming and the 
hatchlings died. And something was happening far from our 
shores that we had no way of controlling, except prevent the 
exportation of DDT.
    Dr. Humphries, you said the carp are at our doorstep. It 
reminds me of an image in the language of my ancestors, the 
Slovenes: [Speaking in foreign language.] "We just think about 
the wolf, and it is at our doors." And that is what the carp 
is; it is at our doors. And the Great Lakes can't wait, said 
Secretary Frank, which I thought was so compelling.
    So what I want all of you to discuss now is we have this 
draft, Asian Carp Control Strategy Framework. We have the 
language of the Water Resources Development Act of 2007, which 
took a great deal of bipartisan effort, I must say. And in so 
expressing, I want to once again express my great appreciation 
for the splendid work of Mr. Mica, the Ranking Member on the 
Republican side, to bring a bill forward in a way that had 
never been done before, open this transparency and 
bipartisanship. And we overrode a presidential veto to get that 
bill passed.
    But it had this particular language, the interbasin study, 
a long-term action to address the problem of the Asian carp. So 
all the authority necessary exists to bring all of you and all 
of the other entities together.
    Now, I want your commitment and your expression of how you 
are going to do this, both in the short term and the long term. 
We have an immediate issue to be addressed; we have a longer-
term issue. We have the invasive species that come in through 
ballast water. We have this species that is moving up-lake.
    And, by the way, Mr. Wilkins, that didn't come in any 
ballast water. The waterway users, the barge operators, they 
didn't bring this in. It escaped, as we all know, from a fish 
farm, a catfish farm, and didn't belong there in the first 
place.
    The Lacey Act is good law, but if it isn't enforced--just 
as in the late 1970s we passed legislation to outlaw scrimshaw 
and impose enormous penalties to save African elephants and 
save whales. And yet, if you don't enforce the act, you don't 
impose the penalties. We have penalties on whaling in our 
territorial waters, but if it isn't enforced, the whaling 
continues. Same here, if these laws aren't enforced, if we 
don't have multidisciplinary strategies, we don't engage the 
province of Ontario, the Canadian National Government and all 
the States and the Federal agencies together, we are not going 
to be effective.
    So, first of all, while you are thinking about that, about 
what you are going to do and how you are going to continue and 
how you are really going to vigorously implement the 
authorities available, General Peabody, tell me--and thank you 
again for making the long journey, for each of you, for making 
the extraordinary effort to be here.
    We worked out the funding, the shift of authorities and the 
availability of funds, both under the stimulus program and 
under the regular programs. So describe the work under way now 
and your timeline to meet the completion goal of fall 2010 for 
this second, bigger, more robust electric barrier.
    General Peabody. Yes, sir. Thank you.
    Sir, originally, Barrier 2-B, which, the way I think of it, 
is effectively a better-looking twin to Barrier 2-A will be 
executed, thanks to $7 million from the American Recovery and 
Reinvestment Act by September of this year.
    If we can pull that to the left once the final design for 
all the electronic components, which is under way right now is 
complete and we have awarded the contract and examined the 
schedule, we will do that.
    This barrier gives us redundancy in the Sanitary and Ship 
Canal, which, although there are other vectors, remains the 
primary avenue of approach for Asian carp up into the Chicago 
Area Waterway System.
    Barrier 1, as a reminder, is a demonstration barrier, which 
has lower operating parameters than Barrier 2-A. Barrier 2-A, 
as a result of the information that Dr. Lodge and his team 
provided to us this past summer, was taken to higher operating 
parameters, which we know to be, based on laboratory testing of 
Asian carp of all sizes, juvenile and adult, in tanks, to be 
the optimal parameters for the barrier. So the barrier is 
operating today at its optimal parameters.
    Barrier 2-B will give us that redundancy so we don't have 
to go through the intensive rotenone application that Mr. Davis 
talked about during his testimony ever again. We would probably 
have to do a minor application, but it would be in a very 
short, narrow stretch of the canal, just a few hundred feet, as 
opposed to nearly six miles.
    Mr. Oberstar. Does that mean September of this year?
    General Peabody. Sir, the construction will be done in 
September. It will take about a month for us to do the 
operational testing that we need to do to turn it on and make 
it effective. We expect by the end of October that it will be 
operating as an effective barrier.
    Again, sir, I want to emphasize, once I have a construction 
schedule, I can put that schedule under a microscope, and if 
there is a way for us to accelerate that in any way, we will do 
so. But we have to get the design pieces right now.
    Mr. Oberstar. Has the electrical current power of the 
stepped-up version been tested on critters that size?
    General Peabody. I don't know if they were that large, sir. 
But I think they were as large as a foot and a half in length. 
I can get you the exact dimensions.
    Mr. Oberstar. Well, if the sound of a motorboat can 
stimulate those size fish that are on display here--and I 
realize the record can't see my finger pointing over to these 
models--but if it can scare them to jump out of the water, then 
how much electrical current is needed to do that?
    General Peabody. Yes, sir. Great question.
    The original dispersal barrier, the demonstration barrier, 
was built based on information generally available at the time 
about other dispersal barriers that had been built. And the 
information indicated that fish responded to one volt per inch, 
which is the primary, but not the only parameter.
    As a result of studies Dr. Mark Pegg did in 2004, he 
indicated that the voltage required to repel the specific 
species of Asian carp could be as high as four volts per inch. 
Subsequently, we conducted (or ``ran'') additional studies, and 
what we found was Dr. Pegg had it at least partly right. One 
volt per inch did not seem to be adequate, but, in fact, it was 
a combination of three variables: the voltage, in this case two 
volts per inch; the frequency, or how fast this pulse rate goes 
out, because it is not a constant current, it is a pulsing DC 
current that goes out, and 15 hertz is the frequency; and then 
the periodicity of the pulse, which is 6.5 milliseconds, in 
other words, the duration of the pulse.
    Those are the parameters that we are currently applying in 
Barrier 2-A. I want to caution: These are parameters that have 
shown to be effective in laboratory tank tests, where fish 
cannot escape the electricity. One of two things happens. The 
fish either attempt to swim away, or they swim into the current 
at these parameters and they are rendered unconscious, they are 
stunned, they float to the surface, and they flow away.
    We need to do additional testing using flume tests, with 
our Engineer Research and Development Center, that will 
replicate field conditions. Right now we don't have flumes that 
are large enough to replicate those conditions. This is being 
built this spring. Over the course of the summer, we will 
execute those additional tests, and that will further inform 
our optimal parameters research.
    Mr. Oberstar. Will that include testing this volume of 
current against juvenile fish, as well?
    General Peabody. Yes, sir, all size fish. It is 
interesting, we were going to start testing in smaller flumes 
this week, and we were unable to do so because when our 
research and development lab folks went out to the laboratories 
that farm these fish for testing purposes, there were not 
enough fish available to do the tests. So we have had to go to 
alternative sources. But we will start that next week, the 
small flume test.
    Mr. Oberstar. Thank you.
    Cam Davis, what about my question? Speak for the whole 
group here. What is it going to take to keep this group 
together under the existing legislative authorities provided? 
And what about funding to sustain this effort in the short term 
and the long term?
    Mr. Davis. Thank you, Mr. Chairman.
    What is it going to take to keep this group together? I 
have been so impressed by how it actually hasn't taken much. 
Every single agency around this table has come willingly and 
very helpfully, in terms of helping with the rapid response 
action that we saw in December, in terms of the drafting of 
this framework. We have seen everybody drop everything and push 
really hard to get this document in front of you that you see 
now.
    So I don't see any of that commitment wavering, from where 
I sit. And that is something I can say for the whole group. 
There is not a lot I can say for all other agencies because I 
don't represent them, but that is one thing I can say 
absolutely.
    Mr. Oberstar. Are EPA and the Corps the lead agencies here?
    Mr. Davis. The EPA has a coordination role. We facilitate 
the integration of the various steps and actions that you see 
in this document. We, for example, at EPA do not have authority 
over the locks. We do not have fishery management authority 
with any one of these States, certainly Illinois.
    And, in terms of the lead, we consider ourselves the lead 
for purposes of making sure that our actions are integrated, 
that we are taking a coordinated approach to solving this 
problem.
    Mr. Oberstar. General Peabody, how is this going to work 
now? Do we have a two-headed leadership here, or do we have one 
single source of direction?
    And I say, the opportunity is greater than we have ever had 
before. We have a President from the Great Lakes who 
understands the value of this great resource. We have the 
funding in place, we have mechanisms available to us, the 
scientific community alerted, the public is anxious. There has 
never been a better time than now. So I don't want to lose this 
momentum by a lack of central leadership.
    General Peabody. Mr. Chairman, I agree with Mr. Davis's 
remarks. I think the team is united in its intent to come to 
solutions that are effective. The challenges that we have going 
forward are, can we get adequate information upon which to make 
the best informed and reasoned decisions in a timely manner? 
That is the fundamental challenge.
    I will give you an example. One of the things that we are 
examining is whether we can apply acoustic and bubble barriers 
and whether we can apply CO2 in or near the locks, to use the 
locks as an effective barrier to the migration of Asian carp. 
But this is just a concept. These are just ideas. We need to go 
from ideas to drawing board to execution. And so we don't know 
all the stumbling blocks that we may encounter to execute the 
engineering that will take these ideas and implement them.
    But I can assure you that we intend to implement them as 
fast as possible and that, in coordination with EPA and our 
other agency partners, we will try to make these measures as 
effective as possible, as well.
    Mr. Oberstar. Thank you. I can assure you that there will 
be vigilance from this committee, beginning with Mr. Petri, who 
has long been a protector of the Great Lakes.
    Mr. Petri. May I ask a question?
    Mr. Oberstar. Such time as the gentleman may consume.
    Mr. Petri. Okay, I do have a couple of questions.
    First of all, I wondered if I could provide Mr. Wilkins an 
opportunity to respond to Mr. Brammeier's testimony about the 
locks. It didn't sound like you were talking about the same 
world, because you were talking about the tremendous volume of 
commerce going through the locks and the importance to the 
local community, and he was saying it is only 1 percent that 
goes all the way through, and, really, it would not be 
particularly disruptive to figure out strategies to put in a 
physical barrier between the Great Lakes and the Mississippi 
River.
    Mr. Wilkins. Well, sir, I cannot speak to Mr. Brammeier's 
data, so I will not. But I can say to you is that, when I hear 
the statement about the lock closure, basically what it says to 
me is that the U.S. Solicitor General has already stated that 
the locks themselves are not watertight. I can tell you that in 
my previous life prior to be an administrator, I was a former 
captain on the inland waterway system, and they leaked and they 
permit the escape of water.
    I guess my short answer is that the locks just won't be a 
permanent barrier because there is no type of bulkhead in the 
chamber. Given what the major general was saying, how can we 
use other resources to come to a final means of trying to 
control, because I can tell you that we, as AWO, certainly are 
excited and want to continue working with the full team with 
rational outcomes.
    Mr. Petri. But could you elaborate on your testimony? I 
think you were talking about a physical barrier, not 
necessarily relying on the locks.
    Mr. Brammeier. Certainly, Mr. Petri. I do want to be clear 
that there are two questions at hand today. One is the short 
term, and the other is the long term. And, in my comments, I am 
speaking to the long-term need to separate the Mississippi 
River from the Great Lakes, which is going to require 
significant investment, new authority, and a change in the way 
we think about the system.
    Just to clarify the data, the numbers that I cited were 
reflective of the volume of commodities moving through the 
O'Brien Lock on the south side of Chicago relative to the total 
volume of freight moving in the Chicago metropolitan area 
annually.
    Mr. Petri. And that is--well, you said it was 1 percent of 
the total movement or something?
    Mr. Brammeier. Less than 1 percent, yes. And those are the 
best numbers we have, reflective of how much of that cargo 
actually moves from the Mississippi River into the Lake 
Michigan Basin.
    Now, to be frank, even less of that actually requires a 
trip into Lake Michigan. And so my point here is that the 
volume of traffic that needs to move from the Mississippi River 
to the Great Lakes on the waterway is a very small number 
relative to the total amount of movement on the waterways and, 
certainly, to the total volume moving through the Chicago metro 
area.
    Mr. Petri. So most of the movement is going to depots or 
other destinations within the Chicago area but not in Lake 
Michigan?
    Mr. Brammeier. Most but not all, certainly.
    Mr. Petri. You are saying it is only 1 percent?
    Mr. Brammeier. Of the total volume of cargo moving on all 
modes, through all mechanisms through the Chicago metro area, 
yes.
    Mr. Petri. Mr. Wilkins?
    Mr. Wilkins. Well, first, I would say ecological separation 
is a huge game changer. Nationally, the policy--that would 
become a policy judgment which says navigation may not be 
important, and I don't think that is the answer. And 
regionally, it would eliminate a lot of jobs, not just jobs for 
us in the barge industry, but all the subsequent services that 
rely on that, which is manufacturing, terminals, docks, all of 
the above.
    As far as the tons that move through the system, it is 
certainly a viable system. It is certainly a system that is 
continuing to grow. We look at the inland waterways system as 
the most economical means of transporting on a cost-per-ton 
basis when compared to other modes. It is very green, very 
environmentally friendly. So I don't look at it as a dying 
business or a business that is still not viable today and in 
the future.
    Mr. Petri. I wish I had more time to go further, but this 
is an area that I think will be of considerable discussion, and 
we will try to come up with a permanent solution, not just for 
this problem but for other invasive species moving both ways 
through the area.
    And I guess I wanted to ask Mr. Lodge about that. You 
indicated that DNA testing indicates that these Asian carp are 
already in the Great Lakes. And I wanted to ask General 
Peabody, finally, about other vectors. Because in some of the 
information the Chairman has, there is an indication that 
people may be buying minnows or something for fishing, and they 
could be Asian carp minnows. And the next thing you know, the 
sports fisherman or others are--they don't all get eaten by 
another fish. Some of them might wiggle off, and the next thing 
you know, they are living in the Great Lakes. A lot of 
different ways that these creatures can get into the lakes. 
People might even inadvertently move them, or intentionally, 
thinking it is a cool thing to do, discharge them into the 
Great Lakes.
    So I guess I wonder if there is no magic bullet, probably, 
in dealing with the range of possibilities for species getting 
from the Mississippi Basin into Lake Michigan. But I just 
wondered if you could comment on that a little bit.
    And then, secondly, talk about the habitat in the Great 
Lakes. Is it really conducive to these fish? I mean, there seem 
to be bottom feeders and, sort of, river and pond type fish. 
The Great Lakes are colder and vast. How realistic is the 
possibility that they will, in fact--I mean, maybe a few--but 
really multiply and dominate the food chain, given the 
different natures of the habitat?
    Mr. Lodge. Thank you, Mr. Petri. I think what I hear is two 
different questions. One is about what are the pathways and the 
relative importance of the pathways by which fish might get 
into the canal system above the electric barrier. And the 
second is about potential impact in the Great Lakes. So let me 
take those one at a time.
    It seems quite clear that the largest potential source of 
individual Asian carps into the canal system close to Lake 
Michigan is via the canal. We know from lots of lines of 
evidence, from many State and Federal agencies now, that the 
silver and bighead carps are both very abundant south of the 
electric barrier. So those fish are, if you will, stacked up 
down there, spreading and pushing, if you will, against the 
electric barrier.
    If the electric barrier is less than 100 percent effective 
or fails on occasion or can be circumvented during floods that 
unite the Des Plaines and I&M canal with the Chicago canal, 
then that is a large potential source. So it is reasonable to 
put the greatest attention on the canal and the barrier system 
and the steps that have already been outlined in the framework 
for preventing additional fish from south of the barrier from 
joining those north of the barrier.
    Having said that, there clearly are other potential 
pathways. And you have mentioned both, both of the ones that I 
see as being potentially important. Bait--and Mr. Rogner has 
already talked about a survey the Illinois DNR is going to do 
to try to assess that. I think that is possible. I think that 
is probably--I mean, we will have to see what the data say, but 
I think these fish, I think particularly the juveniles, are 
unlikely to do very well in a bait store kind of setting. So I 
doubt that is going to be particularly important, but it could 
be of some importance.
    The thing that I think has, in the past at least, been 
clearly more important is the intentional release of adult 
carp. There are several, if not many, ponds in the Chicago 
metropolitan area that we know are inhabited by bighead and/or 
silver carp. Those carp didn't get there from the canal. They 
got there because individuals bought them and released them. 
There are some cultural practices that have encouraged people 
to do that in the past.
    Now, in Chicago, in the last few years, that was outlawed, 
and I think Ms. Humphries suggested that is not legal in 
Michigan anymore. But it could be that that is still happening 
illegally. It could also be that some of those fish north of 
the barrier have been there for a long time. They live 10 years 
or more.
    So that was perhaps a too-long answer to your first 
question.
    The second question was about impact to the Great Lakes. I 
think none of us know for certain what the impact would be in 
the Great Lakes. There is only one way to find out, and I don't 
think any of us want to try that way.
    I think what I would say is that it is very hard to imagine 
the result of an invasion by either silver or bighead carp 
being positive; very difficult, if not impossible, to imagine a 
net positive outcome. And, on the other hand, it is very easy 
to imagine a catastrophic outcome. So somewhere in between 
those two perhaps is the most likely outcome if either silver 
or bighead were to invade.
    I would offer you a metaphor. We are playing Russian 
roulette with the environment and the economy of the Great 
Lakes systems when we allow access to those species and the 
other ones that I outlined. And, in fact, probably Russian 
roulette isn't a very good metaphor because it is not like 
there is only one chamber loaded. We have it loaded with two 
chambers full of Asian carp, silver and bighead, and then we 
have all those other species. So it is not even a good 
metaphor.
    We know that these invasions will happen if additional 
management steps are not taken to make the canal less permeable 
to organisms. And, of course, while we are all sitting here 
talking, the fish are swimming.
    Mr. Oberstar. Thank you for that very thoughtful response 
and for those very thoughtful questions.
    I will come back to Mr. Petri in a bit. Now I want to 
recognize Ms. Edwards and thank her again for beginning the 
hearing and for being here today.
    Ms. Edwards. Thank you, Mr. Chairman. And, as always, when 
I show up at the hearing, I learn something, and then I end up 
with questions. So I appreciate the opportunity.
    Since I do come from the Chesapeake Bay region, I mean, one 
of the things that I have been, you know, trying to focus on in 
this hearing are areas of coordination and collaboration among 
the States and Federal agencies. And so, Mr. Davis and General 
Peabody, I appreciate your indicating the level of enthusiasm 
that the various partners have shown, at least at this stage, 
in working together and coordinating.
    But some of the experience that I think we have here with 
the Chesapeake Bay and the restoration of the bay and the 
coordination of efforts within the Chesapeake Bay watershed is 
that it really does require both presidential leadership, an 
agency that is really designated to coordinate, and, of course, 
a Congress that commits the resources that it takes to match 
the enthusiasm of the participating States.
    And there is a piece of that that seems lacking here, in 
terms of really designated coordination. And, Mr. Davis, I 
would appreciate your commenting on that. Because some of the 
things that we learn about the bay and our other regions with 
invasive species, you know, are transferable, and we don't 
always have to start from scratch. And I wonder if EPA has some 
thoughts about that and what we might gain in terms of its 
application with the Great Lakes region.
    Mr. Davis. Sure. Thank you very much, Congresswoman.
    I think you have pointed out a good trifecta. Presidential 
leadership: check, we have it. Agency coordination: check, we 
have it. Funding: check, we have it.
    What we haven't had, to me, in the past is a roadmap that 
clearly tells the public who has to do what by when using which 
sources of funding. There hasn't been any one place that people 
can go to say, okay, if I am interested in the locks issue, 
here is where I go to find out about it. If I am interested in 
fishery carp suppression, population suppression measures, here 
is where I go to find out who is in charge of that, when are 
they going to act, how are they going to fund those efforts.
    That is why the release of this yesterday is so absolutely 
critical. Because, for the first time ever, what we have done 
is we have pulled together those answers, in terms of what 
actions are going to be taken, by whom, when, and what the 
funding sources are.
    So there is nothing about this situation where, as much as 
we all would love to see this, where any one person or any one 
agency can simply pull a lever and this problem goes away or 
mitigates itself in some way. But what we can do is clearly 
articulate what the authorities are, which agencies are 
undertaking which actions, and what the expectations are for 
when those actions will be started and completed so there is 
some sense of accountability.
    I think communicating that accountability structure has 
been something that we have desperately needed. And I think we 
have, with this framework, a very good tool for ensuring that 
accountability.
    Ms. Edwards. And do you have any thoughts as to whether you 
have the tools that will be applicable across administrations 
and across Congresses?
    Mr. Davis. Well, I wish I could predict the future with a 
lot more clarity than I have been able to do so far. So it is a 
great question, and it is a tough question to answer.
    I do think that it is worth a try to see this. This 
framework just came out yesterday, and I think we need to give 
it some time to bake and for us to take action with it.
    Ms. Edwards. But you don't have a statutory tool?
    Mr. Davis. For coordinating?
    Ms. Edwards. That is right.
    Mr. Davis. Under Clean Water Act Section 118, the EPA does 
have authority to coordinate actions among the Federal 
agencies. So I think that that is clear. We have invoked that 
authority for purposes of this particular issue.
    I think the real question on the table is, have we been 
able to act fast enough? And I think the clear answer is, no, 
we haven't. I know I have been mindful of and trying to draw 
attention to this issue for more than a half a decade. And now 
that I am in the job, now that we have invoked that authority, 
I think we are getting some traction here.
    Ms. Edwards. Do any of our other witnesses have a comment 
about the need for that authority more directly than through 
the Clean Water Act?
    General Peabody?
    General Peabody. Yes, ma'am. Thank you, Congresswoman.
    Let me just make clear what I understand the Corps' 
authorities to be and their duration. The authorities that we 
have specifically related to this issue are derived from the 
authorities to build, operate, and maintain the fish barriers, 
first of all.
    Second, the study authorities that we have, which are two-
fold--one is the so-called efficacy study, again authorized in 
WRDA 2007, which tells us to find out whether the fish barrier 
is effective, one of the issues that people have articulated 
here. We have a variety of things that we are doing to address 
that, to include an interim report (approved by Secretary Darcy 
last month) to go ahead and work on these flood bypass 
potential avenues that Dr. Lodge talked about along the Des 
Plaines River and the Illinois-Michigan canal during flood 
events.
    The third authority is the Great Lakes/Mississippi River 
Interbasin Study, which is the long-term part of the strategy 
that both Mr. Davis and I talked about in our testimony.
    What we don't have is authority for execution in all cases. 
We have a stop-gap authority that was in the 2010 Energy and 
Water Appropriations Act, Section 126, which gives the 
Secretary of the Army emergency authority to take unspecified 
measures to prevent Asian carp from dispersing northward of the 
barriers and into Lake Michigan. That is a 1-year authority 
that expires a year from the enactment, which I believe is 
October 28th of this year.
    We have used that authority to execute the construction of 
these flanking waterway barriers that I just referred to. We 
will continue to use that authority going forward through the 
rest of the year to execute some of the ideas in our modified 
lock operations concept. But we lose that execution authority 
when it expires at the end of this fiscal year.
    Ms. Edwards. Thank you, Mr. Chairman. I have additional 
questions, but if we are going to go back around, I will save 
them.
    Mr. Oberstar. Before I go to Mr. Petri, I think we need a 
midcourse review. And I would suggest that we convene, 
optimally this panel again, not necessarily in a hearing, but 
in a roundtable discussion that would be public, and get your 
assessment of where matters stand, where progress is being made 
by the Corps, by this interagency group on the control 
strategy, so that, as I have discussed informally with Mr. 
Petri, that is sort of a point of importance for the 
appropriations cycle. If we need to do something further, 
appropriations measures are an effective means of doing so. If 
we need more funding or we need additional authority that we 
can include in an appropriations bill, that all would be agreed 
upon, that would be a legislative action, that would be the 
time to do it.
    So we will share our thoughts on what might be an optimal 
time to do that, and we will notify you. But I want all of you 
to be thinking about early to mid May.
    General Peabody. When it is warm, that would be preferable, 
so that it is not snowing.
    Mr. Oberstar. Ahead of the hurricane season and after the 
snow melts, and come together to discuss where we are, where we 
are going, where we need to go.
    Mr. Petri?
    Mr. Petri. Well, we are going to be having other meetings, 
I guess, so I just had one quick question that I--do these carp 
have any natural predator in our system or where they come 
from--I guess it must be somewhere in Asia, southeast Asia or 
wherever--in their own habitat? Or are they at the top of their 
particular situation?
    Yeah, Dr. Hansen?
    Mr. Hansen. I think we should assume that they have no 
natural predators here, but neither did the common carp. And if 
you give almost any of our native predators a choice, they seem 
to like common carp. So they do tend to select fish with soft 
rays.
    I don't think we should persuade ourselves that the fact 
that other fish will eat them will actually impede them from 
colonizing these Great Lakes and doing great harm. We should be 
pleasantly surprised that they are feeding some of our native 
fishes, but that is not really the point, is it? Because they 
are likely to do their damage in the way that they interact in 
the food web.
    And because they interact in the food web at a low level, 
they could well have the same sort of catastrophic effects that 
we have seen from zebra mussels, where they have essentially 
rerouted the food chain and led to wholesale changes. And our 
secretary from the State of Michigan pointed out that Lake 
Heron just recently underwent a dramatic shift in how that 
whole ecosystem was structured, probably owing to how zebra 
mussels restructured things. So the Asian carp is a very 
different animal but in the same position, and almost certainly 
its damage will be caused through that mechanism.
    And I would also like to say that I agree completely with 
Dr. Lodge. These animals will almost certainly be harmful, not 
helpful. So we probably could see some benefits because 
something will eat them, but it is more likely they will be 
very, very damaging.
    And another point probably needs to be made. The deep cold 
portions of the Great Lakes probably aren't where these animals 
are going to be happiest. They are going to be happiest in the 
near-shore waters, where we have an abundance of streams they 
can swim into to spawn, where we have warmer waters that will 
be more suitable. But those are also some of the most 
productive systems in the Great Lakes. And history would 
already show us that, at the peak of their productive 
potential, Lake Erie outproduced all the Great Lakes combined. 
And one species, the cisco, produced more fish production than 
all of the rest of all the species in the rest of the lakes 
combined.
    So Lake Erie is probably the one at greatest risk, and the 
near-shore waters of Saginaw Bay and Green Bay, where we have 
extremely valuable fisheries. Those are probably the places 
where this animal will do its greatest damage.
    Thank you.
    Mr. Oberstar. Thank you, Mr. Petri.
    Just to supplement that, so eagles, fish hawks, osprey have 
no interest in the carp?
    Mr. Hansen. I certainly didn't mean to say that. Carp are 
probably----
    Mr. Oberstar. No, you didn't, I know. But you say they 
really don't have much challenge from predators. Given the 
abundance in the Illinois River----
    Mr. Hansen. They are almost certainly being eaten by 
things.
    Mr. Oberstar. An eagle is not going to pick up a forty-
pounder.
    Mr. Hansen. Oh, right.
    Mr. Oberstar. Yes, Dr. Lodge?
    Mr. Lodge. If I can just add and build on your point, even 
if juvenile silver or bighead carp provide food for native 
fishes, the problem is the size of those specimens over there. 
And those are perhaps average size, not even big ones. There is 
no predator that is going to be able to consume an adult. So, 
from a biological perspective, we refer to that as a size 
refuge. These fish grow very quickly to a size where there will 
be no predator where they can be consumed.
    Mr. Oberstar. Yes, the idea of a fish that has no stomach 
and must continually process water is astounding.
    And, Dr. Hansen, I understand they can be smoked and some 
people might eat them, but they are rather bony, aren't they?
    Mr. Hansen. They do support native fisheries in their 
native range. And I guess you could always say, well, that 
would be a benefit. But, gosh, I hope we don't go there. So 
they are probably perfectly suitable in some forms for food. 
And obviously they could support the same kind of economies 
here if we let them loose, but hopefully we wouldn't.
    One more point about their colonization ability, it seems 
to me this animal is built to colonize new habitats. These fish 
grow very fast, and you can see how big they get. Those fish 
are probably--you would need to look at their ear bones to 
figure out how old they are, but they are probably only 7 or 8 
years old. They mature at a very young age, and they produce 
lots of eggs. So they are built to colonize these habitats. So 
if you let too many out, the odds are much, much better that 
they will get a foothold.
    So I think you can probably rest assured that Dr. Lodge 
detected fish upstream of that barrier. His methods are 
convincing and proven. The idea now is, is it enough? Are there 
enough up there to start this off? We should hope there are 
not. And we should probably try at least to get rid of the ones 
that have gotten above there.
    Mr. Oberstar. I think we are all agreed on that point.
    General Peabody, what is the rate of flow of the current 
through the ship canal? And it is from Lake Michigan into the 
Illinois River; therefore, fish have to swim against that 
current. So a large fish can do that rather readily, I suspect. 
What is the smallest size?
    And then, Dr. Lodge, if one of these carp females can 
produce 50,000 to a million eggs, can those eggs make their way 
all by themselves against the current?
    General Peabody. Sir, with reference to the current, it is 
very slow in the Chicago Area Waterway System. As Mr. Davis 
talked about, it is very flat topography. And even though 1 
billion gallons of water sounds like a lot, it is not a lot 
when you consider the web of canals and rivers that----
    Mr. Oberstar. Well, in cubic feet per second, what is the 
rate?
    General Peabody. It is less than a foot per second, 
generally, sir. Now, that varies with whether or not you have 
rains, and it picks up during that period. But in terms of how 
the fish behaves, I would defer to the fish experts on the 
panel.
    Mr. Oberstar. Dr. Lodge?
    Mr. Lodge. I think you asked specifically if the egg could 
go upstream, and the answer to that is clearly no. But what is 
clear from the studies that many other biologists have done--I 
am thinking of Duane Chapman at USGS and the book produced by 
Cindy Kolar at the USGS which reviews work from around the 
globe--it is clear that adult Asian carps of both species are 
oriented toward swimming upstream, particularly in search of 
spawning areas.
    And that is what you see in the canal, both from 
traditional work and from our work. They seem to stack up below 
barriers, below structures. And when they are in the spawning 
mood, they are swimming upstream and can readily do so against 
substantial currents.
    Mr. Oberstar. Well, the experience with salmon, which have 
to swim against tremendous currents in the Fraser River and in 
the Yukon and elsewhere on the west coast, you see them going 
against the falls, and the drive to spawn is just so powerful. 
And those are much smaller than these large-scale carps, so 
they have huge power.
    Director Humphries, it was the State of Michigan that 
initiated legal action, and that action was denied by the U.S. 
Supreme Court, but the underlying issue of authority to act was 
not addressed by the Court.
    What motivated the State of Michigan to initiate the 
lawsuit? Will the State be satisfied now that there is enough 
Federal-State multi-agency coordination, a concentrated 
program, a clear strategy to attack this issue? Will they be 
satisfied now to continue cooperating, coordinating?
    Ms. Humphries. We will continue to cooperate and coordinate 
with our sister States. We have been an active participant 
despite the lawsuit. We worked as part of the rotenone 
treatments that were done last December with our sister 
agencies, and we will continue to do that.
    Will it satisfy our legal challenges? No. I will tell you, 
our attorney general office refiled this case last week. The 
decision was made before the latest DNA information was made 
public, and so they have refiled.
    What is at the crux of this is really where we are going 
with this long term. Is our goal to biologically, ecologically, 
and physically separate these watersheds or is it not? And that 
is what, in our conversations with our other agencies and with 
the Federal Government, we have tried to ascertain, is what is 
our long-term goal here. Because it does make a difference in 
terms of how we approach the short-term strategies.
    We applaud the efforts that have been done to coordinate 
activities. We applaud the effort that has been done by the 
Federal agencies to bring funding to this and to Congress. But, 
quite frankly, we need to do more. And we do not feel that 
continuing to operate the lock structure and the opening 
waterways that are in place and poisoning off those waters on a 
regular basis in order to facilitate that is a sustainable 
strategy.
    Mr. Oberstar. So, in short, the State of Michigan welcomes 
the efforts under way but does not consider them to be 
sufficient.
    Ms. Humphries. That is correct, at this point in time.
    Mr. Oberstar. General Peabody, in Louisiana, many, many 
years ago, it was believed to be a great benefit to shipping to 
dig an additional channel to New Orleans from the Gulf, the 
Mississippi River Gulf Outlet, commonly known as "Mr. Go." On 
the order of six or so freighters use that waterway annually.
    What was perhaps not anticipated--or if it was, it was 
dismissed--was that the waterway would allow saltwater to 
penetrate all the way up to New Orleans. In that action, the 
area between Lake Borgne and the Mississippi River was 
destroyed, the wetlands with huge reeds and plant growth that 
proved to be the barrier against surges in storms and in 
hurricanes from Lake Borgne, such that St. Bernard Parish in 
Hurricane Katrina was not just hit by water, it was washed 
away.
    The force of the surge from Lake Borgne, with nothing 
standing in its way, swept away--I was there just 6, 7 months 
after Katrina and took a photograph of the first home that bore 
the brunt of that storm. All that was left was a commode. That 
porcelain piece dominated the landscape. It was the only thing 
that was left. There were no watermarks on the homes of St. 
Bernard Parish because they were all overtopped. And several I 
saw were lifted up with their concrete base and floated as much 
as three blocks away from home until they ran into another 
object that didn't move.
    And this is all, sort of, parenthetical. But the owner of 
the home that didn't move and was struck by a moving home sued 
the intruder for collision damage. And I asked him why. He 
said, "Well, there is nothing else for us to do. No one is 
fixing our problem here."
    So we moved, in the Water Resources Development Act of 
2007, to close off--give the court authority to close off "Mr. 
Go" and divert the Mississippi River, reintroduce fresh water 
and sediment, and to hopefully in time restore the wetland that 
once was the buffer for St. Bernard Parish, which is the home 
of the Islenos people, the Canary Islanders who came to that 
area in the 16th and 17th century.
    So is it possible that closing off navigation, closing off 
the outlet from Lake Michigan would be the definitive answer to 
movement of carp into Lake Michigan and the rest of the Great 
Lakes?
    General Peabody. I think your question gets to the heart of 
the matter, sir.
    If I could get the topography slide up, not the structural 
operations. Great. Thank you.
    Sir, as Mr. Davis indicated in his testimony, this is 
relatively flat topography. If you look, it is a little bit 
hard to see on the slide, but there are some green dots along 
the edge of Lake Michigan in the Chicago area. Starting from 
north to south, you have the Wilmette Pumping Station. And then 
in the heart of Chicago, you have the Chicago locks and 
controlling works. And then a little bit further to the south 
of that, near the bottom of the dark yellow aspect of the 
slide, is the O'Brien Lock, a little bit inland, about eight 
miles inland from the lake. Those are the only potential 
physical obstacles, for aquatic species to move between Lake 
Michigan and the Chicago Area Waterway System above the fish 
barrier.
    If you will notice, to the south and east of the O'Brien 
Lock and Dam, there are two waterways--and it appears there are 
three egress points into Lake Michigan; there are actually only 
two: the Grand Calumet River to the north and the Little 
Calumet River to the south. You are familiar with them, sir, I 
know. And both of those egress into Lake Michigan through the 
Indiana and the Burns Harbor, respectively.
    So one of the challenges that we have is, in addition to 
the authority that the Corps has to operate those locks and 
dams for purposes of navigation--and there are some other 
associated purposes, such as water flow management and flood 
damage reduction--if we were to close the locks, this would 
need to be shown to be effective as impediments to Asian carp 
migration.
    We are actively studying--I want to emphasize this--
actively studying whether or not we should close the locks, but 
we need a vast amount of information to assess impacts and 
consequences on both sides of the equation; not just impacts 
and consequences to the Great Lakes but the impacts and 
consequences to commerce, transportation, flood damage 
reduction, and so forth in the Chicago area system. This is a 
very complex issue. There are orders of magnitude impacts, 
second- and perhaps third-order impacts, that we cannot yet 
understand until we complete our studies, and we are going 
forward with our studies to do that.
    In the meantime, we are actively studying this concept of 
modified lock operations, which would envision operating the 
locks differently than we do today. This concept is just an 
idea that we are still considering. I hope to give Secretary 
Darcy a recommendation early next month, about a month from 
now. But the concept would be, instead of just operating the 
locks so whenever traffic shows up we allow it through, we 
could do a variety of things to impede, not prevent, not stop, 
but impede Asian carp migration through those structures.
    They could include such things as maximizing traffic 
through the locks so we reduce the total number of openings and 
closings of the lock gates. They could include taking actions 
in areas near the locks that would attack the Asian carp 
populations that might be present so that, when we do have 
periods where the locks are open for navigation traffic, there 
is a lower or reduced likelihood that the Asian carp might pass 
through. And they could include putting screens during flooding 
events in the locks, as well as the sluice gates, which need to 
be open for reverse flows to prevent really massive flooding in 
the Chicagoland area.
    The bottom line is, whatever measures we take, they need to 
be effective. And we definitely need to take actions along the 
Little Cal and the Grand Calumet Rivers in association with any 
actions we are considering to take along the locks.
    Mr. Oberstar. Thank you for that thorough and complex 
response. I appreciate it very much. The question is a hard 
one. It has to be asked, and I asked it in the context that I 
did because I think it is very instructive for us to learn from 
the experience of the lower Mississippi River.
    And I appreciate very much, also, your attention, 
attentiveness to the consequences for navigation or shipping 
for commerce as well as the environmental importance of this. 
We cannot have one instead of the other or say they cancel each 
other out. I think we have to do this in the context of the way 
you presented it. I think that is well thought out.
    Mr. Petri?
    Mr. Petri. No, I am fine.
    Mr. Oberstar. Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman.
    Just a couple of questions for you, Professor Lodge and Dr. 
Hansen, about biology.
    Can you tell me, Professor Lodge, what a positive test for 
Asian carp DNA means on the likelihood that a live carp has 
passed by the location where the sample is taken? And I think 
that there is some variation in terms of how long that sample 
lasts to show presence.
    And, also, if you could answer for me whether there is some 
entity that coordinates research about the biology of the carp, 
its habitat, et cetera, and who pulls all that together.
    Mr. Lodge. Thank you, Congresswoman Edwards.
    Your first question, what does a positive DNA result mean? 
With a very high probability, it means that a live carp has 
been or is close by or close upstream within the last 6 to 48 
hours. That is what I believe it means.
    While it is possible that--I mean, you can imagine a number 
of scenarios by which DNA might be present without a live carp 
being present, while there are possibilities, they are not very 
plausible. And they are certainly insufficient to explain the 
overall repeated spatial pattern that I showed you in the 
canal. So when we have been back to places three or four times, 
the result is the same.
    So, while there are other possibilities, they are not a 
plausible explanation for the overall pattern. So the short 
answer is, it means there is a live fish close by, and it has 
been there in the not-very-distant past.
    Your second question is about----
    Ms. Edwards. About coordination of research.
    Mr. Lodge. I think there is no entity. There may be other 
panel members who can speak to that better. I think perhaps the 
framework document and the plans that were put out yesterday 
may be the closest thing that exists to a coordinated plan of 
study of Asian carps. But others may have a more informed 
answer than mine.
    Ms. Edwards. If not, I mean, I guess my question goes to 
whether, for example, we know enough about the reproductive 
cycle to begin to interfere with that? And what research is 
available, for example, that might tell us whether we could 
perhaps pretreat vessels coming through so that it would 
potentially kill eggs passing through? Things like that.
    Because, I mean, there must be some way that, either 
through your university research or other research, that the 
participating States are able to identify the need-to-know list 
and then check that off to get to some of the prevention 
efforts that I think, Dr. Hansen, in your testimony, you 
indicated a need to focus more on that prevention. And I don't 
know how you do that without identifying and coordinating 
research.
    Mr. Hansen. I agree with Dr. Lodge, I don't think any 
single entity coordinates all the research. But the thing to 
remember about these animals is that they have been fairly well 
studied in their native range, so the overall biological 
attributes that they have are fairly well understood.
    And that information was essentially assembled in the two 
risk analyses that were done, one in the U.S. by the people 
that Dr. Lodge mentioned and there was a companion or similar 
piece done in Canada. So we know quite a bit about their 
biology.
    And the studies that have been done on the Illinois River 
by researchers in Illinois basically converge on the same sort 
of information. Hence, we know that they have a fundamental 
ability to grow fast, get large, have lots of eggs. We know 
approximately when you would expect them to spawn, what they 
look for.
    And those elements of their biology were used in the risk 
analysis to essentially say, we think we know where they will 
live, like these near-shore waters or shallower, cooler 
habitats, and they are probably not going to like the really 
open, colder waters. They would likely want to spawn in 
streams. So we would find them in those areas.
    I think many of the things we would want to know from a 
control perspective we probably already know. The question is, 
what tools do we have to bring to bear on some of those control 
methods?
    We studied the lamprey very hard to find a very specific 
toxicant that would target its juveniles when they were living 
in streams. And we got maybe lucky or not, but we have found a 
chemical that has worked and is the primary thing that we fire 
against them. We don't have that same sort of technology 
sitting there waiting for the Asian carp, so we would have to 
think about this more broadly and employ some of the things we 
can do, like catch them. We now apparently can detect them at 
fairly low numbers using Dr. Lodge's technology, but what do we 
do to control them?
    That is what I meant about we don't have a lot that we have 
in the gun right now that we could shoot that specifically aims 
at these species. The things we do know are more general, like 
rotenone, like fishing, and those sorts of things.
    Ms. Edwards. But rotenone just kills everything.
    Mr. Hansen. Oh, absolutely. It is not specific like the 
chemical we deploy for lampreys. And that is obviously what the 
best thing would be. If we had a chemical you could throw into 
the river and it only killed carp, that would be great.
    Ms. Edwards. Thank you.
    Mr. Oberstar. Yes, this idea of biological control, I 
remember at the height of the zebra mussel concern, some 
researcher said, "Oh, we have found a diving duck in the Black 
Sea that eats the zebra mussels, and maybe we could bring that 
over here." My first question was, who is its control? There 
are so many of these control mechanisms in species that we have 
brought in to control a runaway creature or plant that then 
become runaway on their own. Whoever or whatever that creature 
is, let's not bring it in, because they will become a menace on 
its own.
    Well, before I close, I want to ask unanimous consent for 
Members who were not able to be present today to submit 
questions in writing to members of the panel and for you to 
submit responses for the record.
    And, secondly, I will ask staff to work with the 
stenographer team to produce the transcript as soon as possible 
so we can distribute it to Members who were not able to be 
here, for them to review and upon which to ask for their 
questions.
    But now we have been firing at you. Do you have any 
questions for each other or for us? It is not like church, you 
know. You don't have to pray about this.
    Mr. Wilkins?
    Mr. Wilkins. Yes, Mr. Chairman, I would just come back to 
underscore one point around the sense of urgency.
    And the Federal framework currently in place, I mean, it 
has promising measures that we all support. And I think that if 
it comes down to looking at modified lock schedules or 
something of this sort, we would highly recommend that we 
exhaust every other option to stop the carp or impede the carp 
before we look at the effectiveness of closing the locks, and 
certainly take time to understand that.
    We work closely with the Corps of Engineers and with the 
Coast Guard. AWO has had a long history of that type of 
collaboration and working-togetherness, and we think we can 
apply that to this measure, as well.
    Mr. Oberstar. All right. No question about the AWO and 
their participation and their cooperation. It is a great 
organization, and they have a very balanced view on matters of 
this kind, and I appreciate it.
    Mr. Brammeier?
    Mr. Brammeier. Thank you, Mr. Chairman.
    I just wanted to draw some attention to something you noted 
earlier, which is that these next few years are a tremendous 
opportunity. You pointed out that we have a Great Lakes 
President who understands what the lakes means to the region. 
This is a great time to be thinking about thinking big and what 
we need to do, not just in the short term to stop these fish 
from getting in tomorrow, but how we can make changes for the 
long term so we don't have to be here 5 or 10 years from now, 
having this same discussion.
    So now is certainly the time, and this is a tremendous 
opportunity to think big about solving this problem.
    Mr. Oberstar. Thank you. And the Chair intends to seize 
this opportunity and pursue it, as we did in the Water 
Resources Development Act and in the Coast Guard authorization 
bill that has passed the House twice and is languishing over in 
the place I affectionately called the black hole, the other 
body. It is a galactic black hole. You know what happens in 
outer space? Stars become bigger and bigger, and finally they 
condense and collapse upon themselves, becoming enormous powers 
and suck everything else into it, from which not even light can 
escape. That is what is happening in the other body.
    None of you need comment, but that is the way I feel about 
them. This Committee has sent them a lot of legislative 
authority; they just haven't acted on it. So we are hoping that 
maybe some light will escape from the other body and we will 
see something happen.
    But we have put in place a framework within which EPA for 
ballast water will set the standard and the U.S. Coast Guard 
will be the implementing agency, drawing upon all other 
authorities and resources from the Great Lakes and the 
universities, the intellectual capabilities that we have. And 
we had in place a protocol and an agreement with one of the 
lake carriers on the Great Lakes and Great Lakes Environmental 
Research Laboratory to test various methods of treating ballast 
water, both for the lakers and for the salties. And something 
fell apart. We just couldn't get it together at the right time. 
Actually, we needed further authority in the Coast Guard bill 
that we passed; the Senate never acted on it.
    Those are the kinds of missed opportunities. Let's not miss 
that opportunity here. So we will convene this group again in 
May in the understanding that this is a continuing effort. 
Today's hearing is not definitive.
    Your work is much appreciated. I know that my colleagues on 
the Committee were very much looking forward to this testimony, 
to this day. And I know that Mr. Petri will continue to support 
the effort and lead, as he has done, in cooperation with Mr. 
Ehlers, Mrs. Miller, and others on our committee.
    Mr. Petri, any final comment?
    Mr. Petri. No, just thank you, and thank all of you for the 
time that you have put in preparing this testimony. And we hope 
you make it safely back whence you came.
    Mr. Oberstar. Yes, we wish you all a safe journey home, 
despite the Washington snows.
    The Committee is adjourned.
    [Whereupon, at 4:58 p.m., the Subcommittee was adjourned.]

</pre></body></html>
